<html>
<title> - RECOVERY ACT: ONE-YEAR PROGRESS REPORT FOR TRANSPORTATION AND INFRASTRUCTURE INVESTMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                             RECOVERY ACT:
                      ONE-YEAR PROGRESS REPORT FOR
             TRANSPORTATION AND INFRASTRUCTURE INVESTMENTS

=======================================================================

                                (111-88)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 23, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
55-031 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Carper, Tom C., Chairman of the Board, Amtrak....................    06
Darcy, Jo-Ellen, Assistant Secretary of the Army for Civil Works, 
  U.S. Army Corps of Engineers...................................    06
Fernandez, John, Assistant Secretary for Economic Development, 
  U.S. Department of Commerce....................................    06
Hooks, Craig E., Assistant Administrator for Administration and 
  Resources Management, EnvironmentalProtection Agency...........    06
Peck, Robert A., Commissioner of Public Buildings, Government 
  Services Administration........................................    06
Porcari, Hon. John D., Deputy Secretary, U.S. Department of 
  Transportation.................................................    06
Rajk, Martin J., Deputy Assistant Commandant for Resources and 
  Deputy Chief Financial Officer, U.S. Coast Guard...............    06

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cohen, Hon. Steve, of Tennessee..................................    80
Johnson, Hon. Eddie Bernice, of Texas............................    81
Mitchell, Hon. Harry E., of Arizona..............................    88
Oberstar, Hon. James L., of Minnesota............................    89

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Carper, Tom C....................................................    95
Darcy, Jo-Ellen..................................................   100
Fernandez, John..................................................   106
Hooks, Craig E...................................................   113
Peck, Robert A...................................................   124
Porcari, Hon. John D.............................................   147
Rajk, Martin J...................................................   162

                       SUBMISSIONS FOR THE RECORD

Committee on Transportation and Infrastructure, Majority Staff:..
      Report entitled, ``The American Recovery and Reinvestment 
        Act of 2009 Transportation and Infrastructure Provisions 
        Implementation Satus as of January 15, 2010''............ xviii
      Graph entitled, ``T&I Committee Transparency and 
        Accountability Information by State and Formula Funding 
        under the American Recovery and Reinvestment Act of 2009 
        (P.L. 111-5) (Recovery Act) Submissions Received by T&I 
        Committee (Data Reported as of Deember 31, 2009)''......lxxxvii
      Chart entitled, ``T&I Committee Transparency and 
        Accountability Information by State under the American 
        Recovery and Reinvestment Act of 2009 (P.L. 111-5) 
        (Recovery Act) Submissions Received by T&I Committee 
        (Data Reported as of Deember 31, 2009) Percentage of 
        Allocated Funds Associcated with Project Stages, Highways 
        and Bridges''............................................  xciv
      Chart entitled, ``T&I Committee Transparency and 
        Accountability Information by State under the American 
        Recovery and Reinvestment Act of 2009 (P.L. 111-5) 
        (Recovery Act) Submissions Received by T&I Committee 
        (Data Reported as of Deember 31, 2009) Percentage of 
        Allocated Funds Associcated with Project Stages, Clean 
        Water State Revolving Fund''.............................   xcv
      Chart entitled, ``Committee on Transportation and 
        Infrastructure the American Recovery and Reinvestment Act 
        of 2009 (P.L. 111-5) (Recovery Act) MILES IMPROVED by 
        Recovery Act Highway and Bridge Funds''..................  xcvi
      Chart entitled, ``Committee on Transportation and 
        Infrastructure the American Recovery and Reinvestment Act 
        of 2009 (P.L. 111-5) (Recovery Act) BRIDGES IMPROVED by 
        Recovery Act Highway and Bridge Funds''.................. xcvii
Hooks, Craig E., Assistant Administrator for Administration and 
  Resources Management, EnvironmentalProtection Agency:..........
      Response to request for information from Rep. Oberstar, a 
        Representative in Congress from the State of Minnesota:..
        Regarding combined sewage overflow.......................    60
        Regarding non point source and Superfund projects........    63
Mica, Rep. John L., a Representative in Congress from the State 
  of Florida:....................................................
      ``American Recovery and Reinvestment Act High-Speed and 
        Intercity Passenger Rail Grants -- announced January 28, 
        2010.....................................................    23
      ``TIGER Grant Distribution,'' chart........................    20
      ``TIGER Grant Distribution State with Highest 
        Unemployment,''chart.....................................    21
Peck, Robert A., Commissioner of Public Buildings, Government 
  Services Administration:.......................................
      Response to request for information from Rep. Oberstar, a 
        Representative in Congress from the State of Minnesota...    69
      Responses to questions from Rep. Mica, a Representative in 
        Congress from the State of Florida.......................   142
Porcari, Hon. John D., Deputy Secretary, U.S. Department of 
  Transportation:................................................
      Response to request for information from Rep. Mica, a 
        Representative in Congress from the State of Florida.....   156
      Responses to questions from Rep. Richardson, a 
        Representative in Congress from the State of California..    42

                        ADDITIONS TO THE RECORD

Federal Emergency Management Administration, U.S. Department of 
  Homeland Security, Timothy W. Manning, Deputy Administrator 
  Protection and National Preparedness, written testimony........   168
International Boundary and Water Commission, Edward Drusina, 
  United States Commissioner, written testimony..................   173
Natural Resources Conservation Service, U.S. Department of 
  Agriculture, Dave White, Chief, written testimony..............   179
Smithsonian Institution, Dr. Wayne Clough, Secretary, written 
  testimony......................................................   175

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     RECOVERY ACT: ONE-YEAR PROGRESS REPORT FOR TRANSPORTATION AND 
                       INFRASTRUCTURE INVESTMENTS

                              ----------                              


                       Tuesday, February 23, 2010

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order.
    Good morning, everyone, and thank you for participating in 
this reconvened meeting, snow-delayed meeting of the Committee 
on Transportation. I made it in; I don't know about the rest of 
the world. But nothing else did. And if we had all had 
snowmobiles, as self-respecting people in Minnesota do--the ice 
is 30 inches thick on Leech Lake, where this past weekend they 
held the Eelpout Festival and had some 20,000 people in town to 
do ice fishing.
    Mr. Mica, that probably doesn't happen in your district.
    Mr. Mica. Almost.
    Mr. Oberstar. This is to be and it will be, was to have 
been last week and it is now, the 1-year anniversary review of 
progress made under this Committee's portions of the Recovery 
Act. This is the 14th in a series of hearings we have held on 
progress made under the stimulus.
    The act has resulted in 10,348 highway, transit, and 
wastewater projects, breaking ground all across the country. 
Although they had a slow start at EPA because of various 
complexities of the rule-makings that needed to be done, every 
stimulus dollar allocated to EPA into the State revolving loan 
funds is now under contract. And that is a great achievement.
    These 10,348 projects have created, sustained 300,000 
direct on-project jobs. I have been to at least 5 States, 6 
States, to see those projects in progress. Total employment 
from highway, transit, wastewater treatment, direct--and those 
jobs that are in the supply chain, supplying sand and gravel 
and aggregate and cement and Ready Mix and asphalt and rebar 
and fencing and fence posts and I-beams, have resulted in over 
938,000 jobs.
    Those are jobs this Committee has tabulated and calculated 
and can account for. I don't speak for the other Committees, 
but we have 15 categories of reporting, and all available on 
the Committee website. You can track these projects down to the 
millions of hours worked, the job hours created, sustained, and 
total payroll of job hours created. So this is what I promised 
to do, it is what I said would be done, and it has been 
accomplished.
    On those direct on-site jobs, payroll: $1.5 billion. 
Federal taxes paid by those workers who are on the job: $310 
million. Unemployment compensation checks avoided: $254 
million. Those are real accomplishments. Those translate into 
lives restored, home mortgages being paid, kids being sent to 
school, health insurance. Most of those union jobs are 
reinstated and restored.
    But we need to go on from there. We need to pass the 
additional "Jobs for Main Street" bill. The House has passed 
it. The Senate is slowly making its way, not to be derogatory--
slowly making its way, painfully, toward resolution of that 
issue. And we need the long-term, 6-year surface transportation 
bill that we have been working on in this Committee.
    Now, the $64.1 billion attributed to our Committee, our 
Committee's jurisdiction, we can account for 16,692 projects, 
totaling $56 billion. Federal agencies, States, and partners 
have obligated $42.3 billion of that for 16,000 projects.
    And while there is some misunderstanding and 
misapprehension in the news reporting on transportation 
infrastructure and transportation stimulus dollars, the jobs 
precede the outlays. States award the bids; contractors begin 
putting their equipment and their personnel on the job site. 
After the first week of work, they send a voucher to the State 
DOT. The State DOT verifies that the work claimed has been 
accomplished, pays the contractor, vouchers the Federal Highway 
Administration, who then makes a reimbursement electronically 
overnight. So the jobs have already been in place for a week 
before there is actually an outlay. And that is a great 
misunderstanding. I have to explain that time and again to the 
news folk.
    All 50 States and the District of Columbia have signed 
contracts for 10,592 projects. Work has begun on 9,241 
projects. Work completed on 3,148 projects. $2.9 billion in 45 
States and the District of Columbia.
    Recovery Act investments are bringing the Nation's highway, 
bridge, and public transit systems closer to a state of good 
repair--that is, cutting down the number of projects in States' 
portfolios of state-of-good-repair needs, to bring road 
surfaces, bridge surfaces, transit systems into compliance with 
this engineering standard of "state of good repair."
    And in completing this work, States can account for 24,000 
miles of road surface improvements. That is nearly half of the 
mileage of the Interstate Highway System. Over 1,100 bridge 
replacement, redecking, resurfacing, reconditioning, widening--
that is an extraordinary accomplishment. It took 50 years to do 
the interstate; it has taken a year to do 24,000 miles of road 
surface.
    And the Federal Transit Administration reports that the 
investment funding we provided them will, when completed, 
result in purchase or rehab of 10,561 vehicles, 613 railcars or 
locomotives, and rehab of 2,325 passenger and 202 maintenance 
facilities. Amtrak: 141 projects, 80,000 concrete ties, 60 
cars, 21 superliners, 15 locomotives, 270 station improvements. 
FAA has nearly completed all of its--it is 92 percent out: 649 
projects, $1.2 billion, 155 runway improvement projects, 139 
airports that account for 11 million operations a year, and 82 
taxiway improvements at 78 airports that handle 8 million 
annual takeoffs and landings.
    The State revolving loan fund I have already cited has 
1,800 projects out to bid. Wastewater infrastructure will 
result in 375 projects, 60 million people, almost a third of 
the U.S. population that is now served by sewer distribution 
systems.
    EPA has awarded $582 million for 57 Superfund projects. The 
Superfund was delayed for 10 years without reauthorization of 
the Superfund Act, and the fund was running close to zero. But 
we have been able, with stimulus funds, to do 57 Superfund 
projects, on which work is either under way or completed 
already, at $443 million.
    The Corps of Engineers has 772 projects, $2.8 billion. The 
GSA will report on theirs. I won't go through the rest of them.
    I do want to say EDA has done a superb job. All their 
meager $147 million--it was a lot more than that when it left 
the House, nearly $4 billion, but it was whittled down, 
unfortunately, in conference--but that money is all out. And 
not only is it doing construction projects in industrial parks, 
but it has launched long-term investments in job-creating 
industries that are operating in those industrial parks.
    And, Secretary Fernandez, you were with me in Nashua just 
recently, last week. It wasn't a Recovery Act project, but it 
was a long-reviewed EDA project that will result in developing 
the first steel mill in the iron ore mining country in the 
United States. American steel, Mr. Holden, American steel. Next 
to an American iron ore mine, with American workers and 
American jobs.
    So I think this is a very successful report, a very 
successful year. Much more to be done. And while I mentioned 
the 24,000 lane miles of highway improvement, that accounts for 
4 percent of the 576,000 miles of highway in America and of the 
Federal highway system that is rated not good, in poor 
condition. We have a long way to go. That is why we need the 6-
year bill.
    And now, Mr. Mica, my partner, thank you for being here, 
and the floor is yours.
    Mr. Mica. Thank you. Thank you for the almost ride this 
morning, too, even though I didn't want you to pick me up.
    Well, I think the Chairman has outlaid some of those facts 
and statistics that need to be cited on a positive vein, and I 
do think that there has been some progress made in the last 
year. We are a little over a year out now, and a few days.
    And I also commend him for the bipartisan manner in which 
we both committed to conduct oversight. And I think we have 
definitely followed through with being responsible stewards of 
taxpayer dollars.
    My father has been dead this year 38 years, but it is 
funny: Even though somebody is long passed, in your memory you 
have some haunting, oh, phrases and things, philosophies that 
they left you with. I remember my father was very frugal. Some 
people may also accuse me of the same trait. But he used to 
say, "Son, it is not how much you spend, it is how you spend 
it." And not only do we have an obligation to report back on 
some of the positive things--and I do have to commend some of 
the agencies. Even the EPA is working hard to get the money 
out. EDA has a very good record in leveraging a small amount of 
money, around $4,000, and actually creating jobs, and I commend 
them. They got one of the smallest amount and have probably 
done one of the biggest, at least percentage, of creating jobs 
with a small amount of money. So I commend them.
    Overall, we have to do a better job. Mr. Oberstar and I 
were trying for a number double the $63.5 billion for 
infrastructure that was in the $787 billion bill. I was just 
recounting how we came back, was it in December or something, 
and were asked to put a package together, and then it got 
whittled down to the $63.5 billion.
    Unfortunately, the total spent today--and that is $10.1 
billion--is only 16 percent. That is expended. So we can do 
better there. We still have $20 billion--right on the target of 
$20 billion on infrastructure not allocated, which is still a 
pretty high number when, this week, they will probably be 
asking for more. And I have no problem with putting more into 
job creation. But we want that to happen. We have to spend what 
we have been charged with to date. So, some good, positive 
news.
    Now, DOT got $48.1 billion. Unfortunately, so far only $9 
billion has gotten out and $35.6 billion allocated. So we have 
to assist and find ways to get money for infrastructure 
projects, even in the areas we tightly oversee, out faster.
    I do have concerns also, and I will get into it with some 
of the witnesses in a few minutes, about how some of the 
stimulus money was expended. Our job is also to be good 
stewards, as I said, of taxpayer dollars and how those dollars 
were spent and were they spent--I mean, anybody can spend 
money, and it not how many dollars you spend, it is how 
effective. Our target was, I thought, to help the American 
people, to recover the economy, help create jobs, and get this 
country back to a sound economic footing. And then most of the 
other problems, sort of, would fall into line. So I am 
committed to that. I do have some very serious questions about 
how some of the money was spent by some of the agencies, and we 
will get into more detail as we hear from the witnesses.
    So, with those opening comments, I yield back.
    Mr. Oberstar. I thank the gentleman. I thank my colleague 
and my partner in this endeavor of the Committee.
    And Mr. Mica was right, we had a bipartisan agreement in 
this Committee in December of 2008. We actually had it in 
December of 2007 and through much of the year. But when the 
Committee's work got swallowed up in a much bigger package and 
our work was diminished both in size and in comparison, we had 
some falloff, understandably.
    Mr. Mica. And, for the record, I might say that we also had 
agreement on a 6-year reauthorization bill and were prepared to 
move forward with that and met in a bipartisan, bicameral 
fashion to move forward, and other factors intervened.
    Mr. Oberstar. Until we ran into the can-do, change-you-can-
believe-in administration that didn't believe in it.
    Mr. Mica. Well, we----
    Mr. Oberstar. You don't have to say that. I did.
    Mr. Mica. There is always hope for change. Thank you.
    Mr. Oberstar. It is coming.
    Under previous agreement, we have 2 minutes for 
Subcommittee Chairs or Ranking Members.
    Ms. Johnson, welcome, despite your new neckwear.
    Ms. Johnson of Texas. It will be off soon.
    Mr. Oberstar. It will be off soon. That is good news.
    Ms. Johnson of Texas. Thursday. It has been on since 
January the 4th. I am truly tired of my partner.
    Mr. Chairman and Ranking Member, thank you for holding this 
hearing today and for continuing your steadfast commitment to 
holding States accountable for the disbursal of stimulus funds.
    Over the past year, this Committee has again and again held 
hearings on the status of Recovery Act funds and, as 
appropriate, have praised and criticized the efforts of both 
Federal and State agencies in getting funds out the door to the 
American people. And this is different because today we have 
the opportunity to challenge those agencies and States that 
have been slow to turn this unprecedented Federal investment 
into good-paying jobs, such as my State of Texas that is unique 
and slow.
    Through this Committee's periodic reporting, I was 
concerned to again find my home State of Texas near the bottom 
of the allocation charts through the month of December. So, 
naturally, I contacted the State department of transportation 
and the Texas Water Development Board to find out why they 
appear to be slower at getting their stimulus dollars 
distributed than most other States. And the State department of 
transportation has assured me that all their stimulus funds 
will be obligated by the March 1st statutory deadline.
    And the State further maintained that, while they may have 
been one of the fastest States in obligating funds, it is in 
part because they agreed on a definitive set of criteria for 
evaluating the ability projects to receive the funds. And the 
criteria included projects that improve safety of 
transportation systems, projects on corridors of statewide 
significance or regional priority, projects that leverage or 
pool resources projects that create long-term economic benefit, 
projects in areas that are economically distressed, and, 
finally, fair and equitable distribution of the projects around 
the State.
    Texas is a very large State. It has nearly 500 Recovery Act 
projects, over five times as many as some smaller States. And 
some of these are large-scale projects for which expenditures 
will be paid out over a time to provide long-term and sustained 
jobs.
    So I noted earlier, I believe it is also appropriate to 
praise our agencies and States for their efforts, as well. And 
so today I commend the Environmental Protection Agency and the 
States for their efforts with the Clean Water State Revolving 
Fund and investment in our Nation's wastewater infrastructure.
    I thank you, Mr. Chairman, for this leadership. And I will 
ask the rest of my statement be placed in the record. Thank 
you.
    Mr. Oberstar. Without objection, so ordered.
    And we welcome you back and pray for a speedy recovery. 
Thank you.
    We will proceed now with our panel.
    The Chair will just make a reminder for Members and for 
audience that it is the rule of the Committee that there be no 
audible cell phone or BlackBerry devices in the course of 
Committee hearings. It is a rule rigorously and frequently 
insisted on by Mr. Young and Mr. Shuster and myself.
    Now we will begin with Mr. Porcari, who is the Deputy 
Secretary of Transportation. We have also Craig Hooks, 
Assistant Administrator for EPA. Administrator Lisa Jackson is 
testifying, as we speak, at the budget hearing in the other 
body. And Secretary LaHood also asked to be--he would have been 
here but for the snow delay, and he had a commitment also with 
the budget in the other body.
    Mr. Robert Peck, commissioner of public buildings at GSA; 
Jo-Ellen Darcy, Assistant Secretary of the Army for Civil 
Works; John Fernandez, Assistant Secretary for Economic 
Development; Martin Rajk, Deputy Assistant Commandant for the 
Coast Guard; and Tom Carper, chairman of the board of Amtrak.
    So, Mr. Porcari, we will begin with you. Welcome. Thank you 
for being here.

STATEMENTS OF THE HON. JOHN D. PORCARI, DEPUTY SECRETARY, U.S. 
    DEPARTMENT OF TRANSPORTATION; CRAIG E. HOOKS, ASSISTANT 
  ADMINISTRATOR FOR ADMINISTRATION AND RESOURCES MANAGEMENT, 
 ENVIRONMENTAL PROTECTION AGENCY; ROBERT A. PECK, COMMISSIONER 
  OF PUBLIC BUILDINGS, GOVERNMENT SERVICES ADMINISTRATION; JO-
 ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS, 
    U.S. ARMY CORPS OF ENGINEERS; JOHN FERNANDEZ, ASSISTANT 
    SECRETARY FOR ECONOMIC DEVELOPMENT, U.S. DEPARTMENT OF 
   COMMERCE; MARTIN J. RAJK, DEPUTY ASSISTANT COMMANDANT FOR 
RESOURCES AND DEPUTY CHIEF FINANCIAL OFFICER, U.S. COAST GUARD; 
          TOM C. CARPER, CHAIRMAN OF THE BOARD, AMTRAK

    Mr. Porcari. Thank you, Mr. Chairman, Ranking Member Mica, 
and Members of the Committee. Thanks for having me here today. 
It is great to be here to talk about the Department of 
Transportation's accomplishments at this 1-year anniversary of 
the Recovery and Reinvestment Act.
    As you know, February 17th was that anniversary. We have 
accomplished much. I will tell you that we have met every 
single deadline, and we intend to continue doing so.
    Overall, the Recovery Act provided $48.1 billion for 
transportation projects for our Nation's highways and bridges, 
transit systems, airports, railways, and shipyards. To date, we 
have obligated $36 billion. That is for more than 13,600 
projects around the country.
    This is substantial progress in a relatively short amount 
of time. And it was made possible in our transportation program 
because of the Recovery Act's reliance on DOT's existing 
formula-based structures and authorities and procedures.
    The single largest portion of it, $27.5 billion, was 
targeted at improving highways and bridges. More than 2,160 
projects have already been completed, and over 7,600 are 
currently under way. These projects represent more than just 
infrastructure improvements. These projects are helping 
communities throughout the Nation. Already, the Federal Highway 
Administration has funded $722 million in contractor payroll 
payments from Recovery Act projects.
    On the transit side, the Recovery Act provided $8.4 billion 
to be used for our transit systems. During the past year, the 
Federal Transit Administration has approved the purchase of 
more than 11,000 bus and rail vehicles. These purchases support 
domestic manufacturing jobs right here in America.
    The Recovery Act also provided the Federal Aviation 
Administration with a total of $1.3 billion in additional 
resources for badly needed improvements at our Nation's 
airports. The majority of these funds, $1.1 billion of the $1.3 
billion, were designated as airport improvement grants. Over 
the past year, we have awarded 100 percent of the funds for 
those, for a total of 360 projects. And I would point out, we 
originally thought that we could fund 300 projects, but because 
of the good bids, we were able to fund 360 at 344 different 
airport locations. Together, these efforts have resulted in 
approximately 6,000 jobs on the aviation side.
    On rail, all the contributions have resulted in jobs, as 
well. The high-speed rail capability is one of the most 
exciting portions of the Recovery Act for us. That $8 billion 
provided to the Federal Railroad Administration is a 
substantial downpayment on a large high-speed rail corridor 
network across the country. And the 13 corridors that were 
identified in this first round are a very strong beginning for 
a high-speed rail network throughout the country.
    We also had discretionary TIGER grants as part of this new 
spending. Last week, we awarded the recipients of $1.5 billion 
worth of TIGER grants that were provided in the Recovery Act. 
We received more than 1,400 applications, totaling almost $60 
billion, from all 50 States and the territories and the 
District of Columbia. Because of the very strong demand, we 
were able to award fewer than 3 percent of the projects actual 
funding.
    We are hopeful that Congress will continue this program. It 
is an innovative, multimodal way to attack some of our more 
pressing transportation problems. And, from the very strong 
applications we had, we are confident that it would be well-
received in the future.
    As President Obama made clear in his State of the Union 
Address, his number-one priority in 2010 is accelerating the 
pace of job creation. Transportation is an important part of 
his plan to put Americans back to work. And the President has 
called for new investments in a wide range of infrastructure, 
such as highway, transit, rail, aviation, and water, designed 
to get projects out the door as quickly as possible.
    We think the transportation results achieved in this first 
year speak for themselves. It demonstrates that we can produce 
these projects and these jobs with long-lasting benefits. We 
would urge Congress to consider supporting future jobs-creation 
legislation.
    Again, thank you for the opportunity to share our 
accomplishments over the past year. I look forward to answering 
your questions.
    Mr. Oberstar. Thank you, Mr. Secretary.
    Mr. Hooks?
    Mr. Hooks. Good morning, Chairman Oberstar, Ranking Member 
Mica, and Members of the Committee. Thank you for the 
opportunity to appear before you today to discuss EPA's 
progress in implementing the American Recovery and Reinvestment 
Act of 2009.
    One year ago, EPA was entrusted with more than $7 billion 
to invest in our economy to rebuild critical infrastructure in 
our communities, to create jobs for our citizens, and to 
rekindle our economy. EPA has worked diligently to move 
Recovery Act money into the hands of its partners and to clear 
the way for rapid investments in construction, land use, and 
redevelopment. I am glad to be back before you on this 
Committee to report on our progress.
    EPA has obligated 99 percent of its Recovery Act funds. The 
Recovery Act required that all the State revolving funds be 
under contract by February 17, 2010. This included 
approximately $4 billion in clean water and about $2 billion in 
drinking water funds. We aggressively reached out to States and 
territories to help them meet this spending deadline. The 
administrator personally called Governors to offer assistance, 
and I called State Recovery Act officials to raise concerns, 
where needed, and thank them for their efforts. And I am proud 
to say that every State and territory, through hard work and 
under extraordinary pressure, has successfully met the Recovery 
Act deadline for the SRFs.
    Recovery Act funds under the Clean Water SRF program have 
resulted in nearly 1,900 assistance agreements and more than 
1,500 projects where construction has begun. These projects 
will create thousands of jobs and serve more than 68 million 
people.
    In Johnson County, Kansas, a $15 million wastewater 
treatment plant improvement project will result in an entirely 
energy-self-sufficient facility. Along with new jobs, that 
project will provide almost $600,000 in annual cost savings for 
rate payers and reduce greenhouse gas emissions by more than 
9,700 metric tons annually.
    This is the largest green project in Kansas, contributing 
to the Recovery Act requirement that 20 percent of the SRF 
funds be used for green infrastructure, water and energy 
efficiencies, and innovative projects. Annabeth Surbaugh, the 
chairman of the Johnson County Board of Supervisors, commented, 
"Investing in green projects is a win-win situation because of 
JohnsonCounty's strong commitment to sustainability, energy 
conservation, and reduction of greenhouse gases."
    Other green projects include upgrading pumping stations to 
increase energy efficiency, water recycling, reclamation 
projects, and making greater use of natural processes to 
address urban storm water runoff. I am pleased to say that 
every State met the green projects requirement.
    Through the Recovery Act, the Superfund program funded 
cleanups at 26 sites that would not have been funded otherwise 
and supported ongoing cleanups at 25 more sites. All of 
Superfund's Recovery Act funds have been obligated, and as of 
February 18th, construction is under way at 38 sites.
    In South Minneapolis, Minnesota, the Superfund program will 
use Recovery Act funds to remove soil from the yards of 
approximately 500 homes in a community with arsenic levels as 
high as 2,800 parts per million, more than 100 times the level 
selected in the cleanup remedy. We are removing a significant 
health threat from the people's yards, one that is especially 
dangerous to children playing in those yards.
    I am also pleased to report that, as of February 18th, the 
Brownfields program has obligated 99.7 percent of its Recovery 
funds. In Woonsocket, Rhode Island, a Recovery grant allowed 
the city to clean up the last remaining corner lot of a former 
Brownfield site. This will facilitate the completion of an $80 
million middle school redevelopment project.
    EPA is grateful to have been entrusted by Congress with 
distributing more than $7 billion in Recovery Act funding. We 
are proud to be a part of the solution for American communities 
and American families facing economic challenges. These 
projects have created jobs, and they will leave communities 
cleaner and healthier and better places to buy a home or invest 
in a business.
    Our most recent report from EPA's contract and grant 
stimulus award recipients indicated that nearly 6,800 direct 
jobs were created or retained. And this is just the beginning, 
for, as more construction and cleanup activities get under way, 
this number should grow.
    We are excited about these accomplishments and look forward 
to continuing our work with this Committee, our partners, and 
the public to ensure an economically and environmentally 
healthier country for all Americans.
    Thank you again for inviting me to testify here today, and 
I look forward to answering any questions you may have.
    Mr. Oberstar. Thank you, Mr. Hooks. That is a very good 
report and a very thorough report.
    Mr. Peck?
    Mr. Peck. Good morning, Chairman Oberstar, Ranking Member 
Mica, and Members of the Committee.
    One year ago, $5.5 billion in funding provided through the 
American Recovery and Reinvestment Act gave us at GSA an 
unprecedented and exciting opportunity to contribute to the 
Nation's economic recovery and to environmental sustainability. 
We are helping stimulate job growth and retention in the 
construction and real estate sectors, as well as develop 
markets in energy-efficient technologies, renewable energy, and 
green buildings--and, by the way, increase the value of our 
Federal building assets, improve their functioning for Federal 
agencies and the public, and reduce our backlog of needed 
capital improvements.
    Since passage of the Recovery Act, we established and met 
all of our target dates for contract awards and outlays. We 
rewarded $1 billion worth of contracts by August 1st, 2009, and 
as of December 31st, 2009, had awarded $2 billion. As of last 
Friday, that number was up to $2.25 billion. We are on track to 
meet our next target of awarding contracts totaling $4 
billion--in other words, an additional $2 billion from 
December--by March 31st and $5 billion by this September.
    We also anticipate expenditures totaling $1 billion to 
contractors by September for work completed. In other words, we 
will outlay a billion dollars by the end of September. That is 
the equivalent of more than 10,000 job years. We are getting 
people back to work. As of December, our Recovery Act funding 
recipients indicated that 1,646 prime contracting jobs had been 
funded.
    We have accomplished these goals in addition to managing 
our normal capital program. Last year, GSA awarded twice the 
dollar amount in contracts within 8 months that we typically 
award in an entire normal year. We surpassed our contract goal 
in December by $70 million on a $2 billion goal despite awards 
coming in, on average, 8 to 10 percent below our projected 
estimates.
    We carefully monitor project progress and identify any 
variances early in our project schedules. We have been able 
quickly to identify and revise our spending plans to reallocate 
savings from projects under way towards other projects. We have 
updated that plan twice and submitted those revisions to 
Congress. The most current plan includes 261 major projects--
seven more than we initially reported, again due to those 
savings--nearly 300 total projects, including rather small 
ones, in all 50 States, the District of Columbia, and two U.S. 
territories. The spending plan revisions that we have made 
represented a reallocation of more than $200 million in 
savings.
    In addition to our Recovery Act funds, we expect to receive 
approximately $1 billion in Recovery Act funds from other 
agencies to support their real estate needs. To date, we have 
entered into agreements with those agencies totaling $397 
million in 26 projects. And, of those, we have awarded $120 
million in contracts.
    I would point out, as you did, Mr. Chairman, that our 
obligation is that our contract awards flow directly to our 
contractors and directly into the construction real estate and 
architecture engineering sectors even before they become actual 
payments for jobs. When we make a contract award, money does 
not begin flowing immediately, but the contract award is a 
catalyst that starts money flowing as contractors begin 
securing financing, hiring personnel, and taking first steps on 
the project. Moreover, we pay in arrears; in other words, we 
have to see actual progress on the ground before we issue a 
payment. So there are jobs being created before those are 
reflected in the numbers of our outlays.
    As we move forward with our projects, we are also including 
measures to convert our buildings into high-performance green 
buildings. We have already installed 37 energy-efficiency 
lighting systems, seven photovoltaic roof projects, and 136 
advanced metering projects. We are currently constructing 49 
lighting projects, 22 photovoltaic roofs, as well as a solar 
hot water project, a geothermal project, and wind projects.
    Our projects include the huge Department of Homeland 
Security project at the St. Elizabeth's campus in Washington. 
It is the largest Federal project in this area since 
construction of the Pentagon. We have started a job center on 
the site. We started our opportunity center and got more than 
445 job applications.
    We are also leveraging our Recovery Act investments to 
become a green proving ground. At the Major General Emmet J. 
Bean Federal Center in Indianapolis, we intend to design and 
install a state-of-the-art photovoltaic roof with 4,500 solar 
panels. In all, our energy savings are going to result in 
annual savings of 812,000 million BTUs, the equivalent of the 
power it takes to run 21,000 homes.
    We have also launched a pre-apprenticeship program with 
contract awards in Washington, D.C., and Portland, Oregon. And 
both organizations have already graduated classes.
    In conclusion, we were entrusted with a significant 
increase in funding to support the construction and 
modernization of high-performance green buildings. The men and 
women in GSA have risen to the challenge. And we look forward 
to working with you and Members of the Committee as we continue 
to deliver this work.
    Mr. Oberstar. Thank you very much for that report. It is 
good to see the very consistent and speeded-up implementation 
at GSA, which was off to a slow start compared to other 
agencies. But you made up time and have a good report here for 
us, and we will come back with some questions later.
    Mr. Peck. Thank you.
    Mr. Oberstar. Ms. Darcy?
    Ms. Darcy. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to testify before you today to discuss 
the implementation of the Civil Works appropriation within the 
Recovery Act.
    If I may, I will summarize my statement here and ask that 
my full statement be entered into the record.
    Mr. Oberstar. All statements will be included in the record 
in full.
    Ms. Darcy. The Recovery Act provides funds to meet the 
intent of the President and Congress to put our fellow citizens 
to work and to help in the recovery of the Nation's economy.
    The accomplishment of Corps of Engineers Civil Works 
projects through Recovery Act funding has begun and continues 
to contribute to the Nation's safety, economy, environment, and 
quality of life. The Recovery Act provides funding to the Corps 
to accomplish these goals through the development and 
restoration of the Nation's water and related resources.
    Total discretionary funding for civil works in the Recovery 
Act is $4.6 billion. The Corps is following the Recovery Act's 
general principles to manage and expend funds to achieve the 
Act's stated purposes, including commencing expenditures and 
activities as quickly as possible, consistent with prudent 
management and consistent with the President's intent to apply 
merit-based principles to use the funds for purposes with long-
term benefits to the Nation.
    Nearly all of the $4.6 billion appropriated for Civil Works 
has been identified for specific Civil Works projects and 
activities. As of February 16th, financial obligations totalled 
just over $3 billion. As of that date, outlays totalled $930 
million, which is updated from the numbers in my completed 
statement.
    There are 830 Civil Works projects across 49 States and in 
both Puerto Rico and Washington, D.C. Among those projects 
being carried out by the Corps are 284 navigation projects, 304 
flood risk management projects, 143 environmental restoration 
projects, 148 environmental infrastructure projects, and 35 
hydropower projects, as well as inspections of 820 levees.
    About 74 percent of the Corps's contract actions have been 
awarded to small businesses, and approximately 46 percent of 
the total dollar value has been awarded to small businesses. In 
addition, we are continuing to encourage our larger companies 
receiving Civil Works contracts to hire local small businesses 
as their subcontractors.
    For the Civil Works program, stimulus effects begin with 
contract award because that is when the contractor begins to 
hire the workers, order the materials and equipment, and take 
other steps to complete the work, creating ripples throughout 
the economy. As a result, stimulus impacts for Corps projects 
are more closely related to the obligation of Recovery funds, 
primarily through contract awards, rather than through the 
subsequent outlays which provide payments to contractors for 
work they already have completed or for supplies and equipment 
they already have purchased.
    In the official recipient reporting system, contractors 
reported that the Civil Works Recovery Act contracts supported 
6,047 jobs in just this last quarter. In addition to these 
jobs, the Recovery Act investment supports numerous indirect 
jobs in industries supplying materials and equipment.
    On February 19th, I was pleased to attend the 
groundbreaking ceremony commemorating the new construction work 
that was made possible by the Recovery Act at Locks and Dams 
No. 4 in Charleroi, Pennsylvania, along the Monongahela River, 
which is in former Congressman Murtha's district. The work was 
authorized in 1992 by Congress because aging navigation locks 
and dams in Charleroi, Elizabeth, and Braddock, Pennsylvania, 
were crumbling and dangerous.
    The Charleroi Locks and Dams represent a major Federal 
investment over a number of years. The additional funding made 
available through the Recovery Act will permit the Corps to 
complete construction of the critical lock walls at Charleroi 
by 2011, sooner than would otherwise have been possible. 
Unfortunately, Congressman Murtha wasn't there, but I think he 
would be pleased.
    Thank you, Mr. Chairman and Members of the Committee, for 
the opportunity to testify. I look forward to answering your 
questions.
    Mr. Oberstar. Thank you very much.
    And thank you for that reference to our good friend and 
former colleague, Jack Murtha, whose accomplishments are writ 
large and who may be remembered for a great many things, but 
one in particular: At the end of the Cold War era, I talked to 
him about shifting some of those saved defense dollars to 
breast cancer research. And within the Appropriations 
Committee, he was able to do that, and that budget went from 
$35 million to $300 million. And many women's lives are being 
saved because of not only the accelerated research on breast 
cancer, but also the education programs that have been funded 
by that savings from the Cold War peace dividend. Had that 
information been available 15 years earlier, I might not have 
lost my wife.
    Mr. Fernandez?
    Mr. Fernandez. Thank you, Chairman Oberstar, Ranking Member 
Mica, and Members of the Committee. I appreciate the 
opportunity to testify today on behalf of the Department of 
Commerce's Economic Development Administration.
    I have been asked to provide you with an update on our 
progress regarding EDA's Recovery Act projects. I am pleased to 
report that many communities that were hit hard by the economic 
recession are already putting these funds to work, breaking 
ground, hiring workers, and leveraging significant private 
investment.
    EDA received $150 million in Recovery Act funding. By the 
end of September, a full year ahead of schedule, we obligated 
100 percent of our allocation, funding 68 projects in 37 
States. We invested $50 million to promote the development of 
regional innovation clusters, $37 million to promote business 
incubation, $27 million to promote green jobs, and $11 million 
to promote global trade.
    Our investments range from as small as $184,000 up to $6.4 
million. These projects target a wide range of economically 
distressed and underserved communities. We targeted projects 
that assisted communities as they built up their local assets 
and infrastructure to strengthen their regional economy and 
enhance their global economic competitiveness.
    EDA awarded $141 million, or about 96 percent of our total 
Recovery Act funds, for capital investment projects. Our 
investments are expected to leverage approximately $981 million 
in private investment over the next few years. Committee staff 
has a complete list of all of our EDA Recovery Act projects 
that go into great detail in terms of the project description, 
job creation numbers, and private leverage.
    To date, 41 percent of EDA's Recovery Act projects are 
already under way. These projects represent about $50 million 
or 34 percent of our total allocation. I am pleased to report 
that, to date, nearly all of our projects within the EDA 
portfolio have met anticipated construction start dates and 
other project implementation milestones. We have been 
encouraged that some of our projects, in fact, have started 
ahead of schedule.
    The Recovery Act requires new measures for unprecedented 
accountability and transparency. With our regional offices, we 
developed specific outreach initiatives to assist our recipient 
partners in meeting these additional reporting requirements. At 
the end of the second reporting period, 100 percent of EDA's 
grant recipients have successfully reported on their progress.
    Our investments support a diverse mix of economic 
development activities that are proven to be an effective way 
of creating long-term economic stability and job growth. Simply 
put, we know what works, and that is why we are particularly 
focused on investments that support regional, collaborative 
innovation strategies.
    EDA's ability to successfully implement the Recovery Act 
should be no surprise to those familiar with the agency. In 
part, our success is due to the fact that EDA has a tremendous 
experience working with a national network of local and State 
economic development professionals. This bottom-up approach to 
economic development is a key strength of our programs. 
Historically, EDA's program investments have been very 
efficient. EDA investments serve a catalytic role in local 
communities. The number of jobs created and the amount of 
private-sector investment leverage continue to be quite strong.
    To the Chairman and others on the Committee, we have had a 
long-term and very successful relationship working with this 
Committee. We remain eager to work with you to help our country 
recovery from this economic recession. And as we prepare for 
reauthorization, we certainly look forward working with the 
Committee to develop an even stronger framework for sustainable 
economic development.
    To Members of the Committee, to the Chairman, Ranking 
Member Mica and others, I just want to say thank you for the 
opportunity to testify today, and I look forward to answering 
any questions.
    Ms. Johnson of Texas. [presiding.] Thank you very much, Mr. 
Fernandez.
    Now, Mr. Rajk?
    Mr. Rajk. Good morning, Mr. Chairman, distinguished Members 
of the Committee. Thank you for the opportunity to speak with 
you today on the Coast Guard's continued progress in executing 
funding received through the American Recovery and Reinvestment 
Act.
    The $240 million appropriated to the Coast Guard by the act 
is allowing us to address critical projects in our Alteration 
of Bridges Program, selected shore facility projects, as well 
as to help sustain operation of our high-endurance cutters. 
Recovery Act funding is providing a significant impact in each 
of these programs to support our hardworking guardians and, 
ultimately, the American people.
    $142 million designated for the alteration of four bridges 
addresses significant obstructions to navigation and is 
critical to improve the safe and efficient movement of people 
and commerce through the communities of Mobile, Alabama; 
Joliet, Illinois; Burlington, Iowa; and Galveston, Texas. Once 
all bridge projects are complete, they will provide an 
estimated $18 million of annual commercial benefit in and 
around these communities.
    Additionally, construction on these four bridges leverages 
the over $120 million previously appropriated for these 
projects. Without the Recovery Act funding, undertaking these 
four projects would not have been possible until additional 
appropriations were made.
    To date, the funding for all four projects has been 
obligated and three construction contracts have been awarded. A 
second bid solicitation for construction of the Galveston 
Causeway is expected to be under contract in early April. The 
three bridges under contract are moving along well, with 
contractors working on each of the projects as we meet here 
today.
    The recipients' reporting indicates that they have created 
or retained 65 jobs through these projects. In addition, our 
discussions with the Burlington Bridge contractor indicates 
that there has been at least 37 unreported jobs created or 
sustained indirectly through the building and manufacturing of 
supplies critical for the project. Direct on-site work for all 
of these bridges will be increasing as the spring approaches.
    The $88 million appropriated for Coast Guard shore 
construction includes critical projects such as building 
housing and barracks for our personnel where no suitable and 
affordable housing exists. Shore projects also include 
revitalizing mooring facilities and shop buildings.
    Once complete, these projects will allow us to better 
execute our operational missions. So far, we have awarded 
contracts on four of the seven projects and obligated just over 
$12 million, which represents 14 percent of the shore 
construction funds and is consistent with our original 
planning.
    The contracting aspects for each of these seven projects 
have had their challenges. Most significantly, we planned to 
utilize a national multi-award construction contract for five 
of the seven projects, but that contract award was protested. 
As a result, we are pursuing individual contracts for each 
project. Currently, all contracts that have been awarded, along 
with those that are yet to be awarded, are intended for small-
business set-aside programs.
    The $10 million appropriated for engineering changes on our 
high-endurance cutters is being leveraged to upgrade critical 
pieces of equipment that most commonly contribute to major 
cutter casualties that adversely impact operations. These are 
some of our oldest and hardest-working ships, which the crews 
continue to struggle to keep operational. These upgrades will 
go a long way to helping their efforts.
    For example, one of the projects entails replacing the 
onboard boilers, which have become very difficult to maintain, 
as indicated by over 200 casualties in the past 10 years across 
the fleet. Without doing something for these absolutely 
critical systems, these ships would continue to lose 
operational days due to casualties. In fact, the Coast Guard 
Cutter Hamilton, which recently completed its boiler upgrade, 
was supporting operations off the coast of Haiti. Hamilton has 
since been relieved by the cutter Dallas.
    Contracts have been awarded for four of the seven high-
endurance cutter engineering changes, with the goal of 
obligating all funds by the end of April. All of these projects 
are also benefitting the important ship repair industry.
    Mr. Chairman, all of these projects will facilitate our 
mission accomplishment to best serve the American public. Our 
contracting staff, engineers, and project managers continue to 
aggressively pursue the execution of these projects in support 
of the intent of the act.
    I would like to thank the Committee for their continued 
support of the Coast Guard and the opportunity to testify 
today. I am pleased to answer your questions. Thank you.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Carper?
    Mr. Carper. Thank you, Madam Chairman and Ranking Member 
Mica and Members of the Committee, for the opportunity to 
testify before your Committee today.
    I would like to give you a quick summary of what we plan to 
do, where we are today, and where we plan to go over the course 
of the coming year.
    Ms. Johnson of Texas. Could you speak a little bit closer 
to the mike?
    Mr. Carper. Okay. Sorry, ma'am. Is that better?
    Amtrak was, as you know, a recipient of nearly $1.3 billion 
in American Recovery and Reinvestment Act of 2009 grant 
funding. As I speak, more than $1 billion worth of projects are 
under way. And I expect that when the deadline arrives February 
of 2011, we will have completed the replacement of all or a 
significant part of eight bridges, the improvement and repair 
of 38 Amtrak facilities and 270 stations, and the return of 81 
stored and damaged cars and 15 locomotives to service.
    Throughout the process, we have pursued three important but 
subsidiary objectives: to ensure that we get the best possible 
value for our money; to get as much as possible done within the 
allotted time; and to make the spending process as transparent 
as possible, with the important and overriding focus of 
creating jobs.
    The Federal Railroad Administration has approved more than 
99 percent of the total funding, and we expect to make the bulk 
of our outlays in 2010. We are reporting to and meeting with 
the FRA on a weekly basis and contacting them far more 
frequently as we work through the grant and contracting 
process.
    About 49 percent of the funding has gone to the Northeast 
Corridor projects, while the remaining 51 percent has been 
distributed across our national system. As of February 22nd, we 
have awarded 413 ARRA contracts, with a total dollar value of 
$722.8 million.
    We have also invested in our fleet. Our mechanical 
department intends to return a total of 81 cars and 15 
locomotives to service with ARRA funding. And the first 
rehabilitated car rolled off the line at our shops in Bear, 
Delaware, on July 13th, not quite 5 months after the President 
signed ARRA into law. When this program is complete, we will 
have added enough equipment for roughly 10 additional trains 
with several engines to spare--10 trains that will allow us to 
grow revenue and add ridership.
    Mr. Carper. Amtrak has already created almost 600 full-time 
equivalent positions as a result of our working on everything 
from replacing ties and rail in our yard in Niles, Michigan, to 
clearing brush and deadfall and cutting back overhanging trees 
along all 3 divisions of the Northeast Corridor. This cleanup 
program is combined with other ongoing efforts to reduce the 
number of incidents that affect our electric traction system. A 
cleanup of this kind is long overdue and has contributed to 
improvements in our train performance.
    Another part of this year's story is stations. Many of 
these projects will be station improvements associated with our 
Mobility First program of station accessibility that includes 
$38 million of our funding. In all, we will invest a total $144 
million from all funding sources in fiscal year 2010 to address 
the compliance of our stations with the Americans with 
Disabilities Act.
    For too long the lack of funding greatly hindered our 
ability to make station improvements. Five years is our goal 
for all stations to be ADA compliant. Examples are Wilmington, 
Delaware, and Sanford, Florida, projects that are already under 
way, on schedule and within budget. Many of these projects are 
ideal for small businesses, and they are spread all over the 
country. Forty-five percent of the contracts we have awarded to 
date have gone to small businesses. We have laid the groundwork 
for a productive year, and I am confident we will bring the 
work in on time.
    I want to close again by noting that we have created more 
than 600 full-time equivalents in our workforce, plus a growing 
number of, vendor-created jobs. We are putting them to work 
building much-needed capacity and infrastructure improvements. 
This process has helped us prepare for larger projects that we 
expect to undertake in the future, and it helped us build a 
better, more transparent railroad.
    I thank you very much for the opportunity today and look 
forward to taking some questions.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Johnson of Texas. We will begin the first round of 
questions now, and my questions will go to the Deputy Secretary 
Porcari. Do you feel that requiring States to obligate 50 
percent of their highway and bridge funding within 120 days of 
receiving their apportionment was a good idea? And I ask that 
because some in my State felt this requirement led to short-
term construction projects that did not yield long-term jobs. I 
would just like to know if you agree with them.
    Mr. Porcari. Madam Chair, it is a good question. I do 
believe it made sense to have that 50 percent obligation 
requirement within the first 120 days. And just to give the 
Committee a sense of where I am coming from, in the early days 
of the Recovery Act, I was a State DOT secretary delivering 
projects under the Recovery Act. What tended to happen was your 
truly shovel-ready projects, the ones that were ready to go, 
you got out the door as quickly as possible, putting people to 
work as quickly as possible. As we are in the latter part of 
the Recovery Act projects right now, what we are seeing are 
larger, more complicated projects that couldn't move on the 
same time frame, but if you look around the country, you are 
seeing a number of those larger projects now. So I think it is 
actually a good combination of immediately getting people back 
to work, the recovery part of this, and also larger projects 
that create jobs that take a little longer to get out the door, 
the reinvestment part, if you will, of the bill, and I think it 
is a good balance.
    Ms. Johnson of Texas. So if by chance a second stimulus, 
you feel that you have a better vision on how to require the 
States and the agencies to comply with the time frame.
    Mr. Porcari. We believe the time frames in our legislation 
are actually pretty good ones. We have been working with our 
State and local partners. I mentioned earlier that we have met 
every deadline so far. We expect to continue to do that.
    I will tell you for the March 1st deadline for Federal 
highways, as of today we already have 30 States at 100 percent 
obligation. We have 11 States at 97 percent or above. The rest 
will make it by March 1st. Likewise, we believe every one of 
our transit recipients will make the March 5th deadline. The 
system that we use, which is our existing reimbursable process, 
is one that the States and the transit agencies understand. 
Going forward in a jobs bill, any further investments in 
transportation infrastructure, if they work the same way, we 
expect to get the same results.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Mica.
    Mr. Mica. Thank you. I have a question to follow up for our 
Deputy Secretary of Transportation.
    I guess that the purpose of the TIGER discretionary grants 
was, as you said, to try to create jobs in our most 
economically depressed area as soon as possible. These jobs had 
to be shovel ready or ready to go to actually employ folks; is 
that correct?
    Mr. Porcari. Yes, it is correct. There is a separate time 
frame, as you know, for the TIGER discretionary grants.
    Mr. Mica. So there were thousands of these submitted. Did 
you rank them, and was there any consideration of unemployment 
or the economic situation in the States?
    Mr. Porcari. Yes, sir. It was explicitly one of the things 
that we looked at. I will tell you that there was tremendous 
demand. We had over 1,400 TIGER applications, $60 billion worth 
of applications for $1.5 billion in funding.
    Mr. Mica. My question really deals, though, with--I have 
another slide there, the bigger one, that shows all of the 
awards for TIGER grants. You had about 1.5 billion in 
discretionary money. If you look at the top of the list, you 
see the lowest unemployment, 141 million went to States below 
6.9 percent unemployment. That to me doesn't quite make sense.
    Take the chart of the 10 States with the highest 
unemployment. We have a separate chart. Just pull that out so 
it is bigger, that second chart. Okay.
    Now, of course, as a Member from Florida, there are certain 
things that stand out in this TIGER grant distribution, a 
little chart, which, Madam Chair, I would like both these 
charts to be made part of the record.
    Ms. Johnson of Texas. Okay.
    Mr. Mica. Without objection, thank you.
    This one sort of baffles me. I thought maybe Florida didn't 
apply. I tried to figure out some of the reasoning, and I 
found, in fact, Florida had 115 project requests from Florida 
receiving--or asking for a total of 4.2 billion. The Florida 
Department of Transportation alone requested Four projects, 
totaling 287 million, and they got zero. Now, we had 11.8 
percent unemployment.
    I really would like you to submit to the Committee, too, if 
you could, any of the paperwork in the evaluation process. Now, 
I know you put these on line, and I appreciate that 
transparency, but somewhere something doesn't click. I thought, 
well, maybe Florida they got some high-speed rail money, 1.1 
billion. But that is not immediate; that would be years before 
that money is actually spent. We don't even have the commission 
together or finalized plans. I thought, well, Illinois got 1.1- 
and 1.2- or something, about 2.3 billion towards rail, 
passenger rail, and they got 120 million. And then I see the 
lowest unemployment States under 6.9 getting TIGER 
discretionary. Somehow it doesn't appear that it is targeted to 
these States. And then we look at the piddly amounts that is 
going there. So somehow this doesn't click in my mind.
    Mr. Porcari. It is a great question that I will be happy to 
answer.
    Mr. Mica. I would like the background, too, of the 
evaluation process, because how Florida could not have one 
project read to go and be in the top 10 unemployment. Senator 
Nelson is also directing inquiry to the Secretary on this 
matter, but somehow we got screwed in this process, and I want 
to find out how and why. It just is unconscionable that we 
would be in the top 10 and have States with half the 
unemployment getting these discretionary grants for economic 
recovery and targeted.
    Mr. Carper----
    Mr. Porcari. I will be happy to answer that, if you would 
like.
    Mr. Mica. Well, again, I would like to see if you could 
submit for the record. I don't have a whole lot of time. I 
don't want to take the Committee's----
    Mr. Porcari. We will submit the criteria.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Porcari. I would also say that of the TIGER awards, 
sir, 60 percent went to economically distressed areas, which is 
far in excess of the nationwide distribution.
    Mr. Mica. I would think that if you asked Members of 
Congress what percentage you would like to go to economically 
distressed areas, I would like to see it in a 90 percent, 95 
percent, in that range. Sixty is nice, but you tell that to 
people who are standing in line.
    I was on the phone this morning with a father whose son was 
released from the United States military with a medical 
disability and can't get a damn job. And I can tell him that 
we--and this kid has been out of the military and can't find 
even menial work. So again, it is just very frustrating from 
our standpoint.
    I know. You are trying to do the best you can. But I would 
like to see those records, and I think Senator Nelson would, 
too.
    Mr. Carper, you were recipient of--there are 78 high-speed 
and--so-called high-speed and passenger rail grants. You were 
recipient, I think, or Amtrak participated in about over 70. I 
think it is somewhere in the 76 range project, right? Of the 78 
you are going to participate in 76 of them according to our 
Subcommittee staff evaluation. We do have an evaluation of 
those, which I would like to be made a part of the record, a 
full list we have evaluated.
    Mr. Carper. I can't give an exact number.
    Mr. Mica. I can. I am just telling you the Committee staff, 
the Rail Subcommittee staff on the Minority will submit that 
for the record. If you have a dispute.
    Mr. Carper. Understood.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. It is 76 out of 78.
    Mr. Carper. Okay.
    Mr. Mica. Now, the training thing, you mentioned 
transparency at least twice. I don't know of where I can, even 
as a Member of Congress, get the transparent information. At 
least DOT puts theirs on the line. I know you are on the 
recipient end, and it should be FRA's obligation to put those 
on line, but they are not on line. I want to see them on line, 
and I want you to put them on line. Can you handle that?
    Mr. Carper. We will do our best to get them on line. I 
can't understand why we couldn't, and we will get back to you 
and make sure that that happens.
    Mr. Mica. Because I think there should be transparency in 
that process. You know, people criticize congressional 
earmarks. I think we should have the transparency in executive 
and administrative earmarks. And today I am going to declare 
war on agencies who make determinations for awarding grants 
behind closed doors. At least we are elected officials, at 
least we are elected officials.
    And I am not picking on the Obama administration. Remember 
when we failed to pass an appropriations measure for 
transportation appropriations? The Members who were here, some 
of you were here, there were 1,155 earmarks that went before 
our Committee we put on display. They were provided by an 
elected Member of Congress through the congressional process, 
passed in the House of Representatives, open to the public, and 
that Bush administration, when we failed to determine how that 
$800 million was to be spent, took that money, and behind 
closed doors some arrogant Bush administration folks put it on 
five projects of their choice with no hearing, no public 
recourse.
    Now, if the Obama administration is going to do the same 
damn thing, I am declaring war on executive earmarks today. I 
want them open and transparent. If it is FRA, it should be. We 
are Members of Congress, and we deserve to know, and the 
American public deserves to know. So I guess that is my speech 
for the morning.
    You don't have to answer, Mr. Carper, but I am looking 
forward--it is not totally your responsibility. FRA is not here 
for me to bash this morning, but I do want that on line, and I 
will demand it. And I am going to write a letter and ask Mr. 
Oberstar, Ms. Brown, Mr. Shuster to sign it and request it.
    Mr. Carper. Congressman, if I might, perhaps I 
misunderstood the question or wasn't thinking quite clearly. 
The numbers that you refer to, I believe, are projects that 
were requested by the State, and they likely will be on our 
service on our lines.
    Mr. Mica. Again, between FRA and Amtrak as the recipient, I 
want them on line.
    Finally, Mr. Peck. Good morning, Mr. Peck.
    Mr. Peck. Good morning.
    Mr. Mica. Sorry you couldn't get away without me saying 
something.
    I am sure you saw this Washington Post story about the 
commercial real estate situation in D.C., which is desperate, 
but which presents us, Ms. Norton, with a great opportunity. I 
saw your number of dollars available, allocated, obligated, 
expended. Worked with Ms. Norton, the Chairman to see that at 
this time when we have a fire sale and we are leasing, we have 
expensive leases, when we have public agencies that can be 
housed at 50 cents, 25 cents on the dollar, that we act now 
instead of later and take advantage of this situation.
    I used to be in the development business, and I always 
bought, sir, at fire sales, and I made a lot of money. Not, God 
forbid, we should make any money on the Federal Government or 
have money to give the taxpayers back, but at least expend the 
money that is available in making wise investments at this 
time, which may not occur for some time. Things will come back. 
This is a great city, this is a great National Capital. It will 
always have value. So if we take those funds sitting there, 
work together and get this money out.
    I took Mr. Oberstar out on a ride around town to see what 
is available. Ms. Norton knows what I am talking about. We need 
to get some of that under contract ASAP. No C-R-A-P, just ASAP.
    Mr. Peck. Thank you.
    Mr. Mica, I know you know, just for the record, of course, 
we can't use Recovery Act funds for building purchases because 
they don't create jobs. However, what you are referring to is 
that we do have some unobligated balances, and we can use 
general tax funds to purchase buildings, and I will tell you 
that we do have one significant building purchase under 
negotiation in the District of Columbia. I can't say what it is 
right now, because we haven't closed the deal, but I hear you. 
You are absolutely right.
    Ms. Johnson of Texas. Thank you very much for sticking 
around. We hope you will put some emotion into it.
    Ms. Norton.
    Ms. Norton. Thank you very much, Madam Chair. And I thank 
the Ranking Member for raising an important issue. The Federal 
building fund is going broke precisely because we do too much 
leaving, and the Ranking Member has specific buildings he would 
like us to buy. But I am right with them when it comes to what 
GSA ought to be doing. This is their economy; they can buy and 
they can lease at amounts they will never be able to do again. 
That is why we have been having repeated hearings on GSA. We 
have had four tracking hearings, which may account for why GSA, 
in fact, I am pleased to say, has speeded up in at least its 
obligations.
    Mr. Peck says he can't tell you what building it is that is 
under contract, but, of course, it is a matter of public 
record, because the administration, for the first time in 
almost 20 years that I have been on this Subcommittee, put 
money in its appropriation to purchase a building. That has 
never happened since I have been a Member of this Subcommittee, 
and it did so last year.
    I would like to see more of that done. But, of course, we 
are going to have to come up with the hard cash if we want to 
purchase money. I this think this is the time to do it. Let us 
all get rich like the Ranking Member did doing precisely that.
    Mr. Mica. Ms. Norton, would your yield for just a second?
    Ms. Norton. I will always yield to the Ranking Member.
    Mr. Mica. Let me make it perfectly clear, because I know 
things can be misinterpreted by the press. First, I know no 
Washington real estate developers, I have nothing for sale, I 
have no specific building. I do have one agency that I would 
like to be located--all their things collocated, and I don't 
care where the hell they put them, just put them in someplace 
cost-effective for the taxpayer.
    Ms. Norton. The Ranking Member wants us to move people out 
of a government-owned building and put the people in a leased 
building in the District of Columbia. No, rather he wants us to 
buy another building for these people. I mean, all of this 
makes sense in its own way. If he and I can get together and 
come up with some cash, I think we ought to do just that.
    I have first some questions for the EDA. I want everybody 
to note that the EDA has allocated all this money and had a 
whole lot less money than everybody else. And I think it is 
worth noting that the EDA is at least obligated--is this Mr. 
Fernandez--or all its funds. Now, the reason it is worth noting 
is unlike the GSA which has control over funds, can go into the 
ground itself, EDA has to work through the States. You are 
really talking about State projects, aren't you?
    Mr. Fernandez. More so local projects.
    Ms. Norton. In other words, it is the locality that has to 
obligate the funds and has to go through all of the 
machinations that are necessary. It is not you who goes into 
the ground, you, EDA.
    Now, let me ask you if there is--the people compete for 
this little bit of money relative to what some people like the 
GSA or, for that matter, the transit folks had. You had, what 
is it, 147 million?
    Mr. Fernandez. Correct. We had 147 million. In terms of 
applications, I think the total amount of requests we had added 
up to about 241 million.
    Ms. Norton. One of the great issues, the Congressional 
Black Caucus had an entire press conference on this, was the 
notion of whether or not funds are being targeted to the 
hardest-hit parts of our country. You have cities in the United 
States--my own city, for example, has 12 percent unemployment. 
That is typical of big cities in the United States. You are not 
geared toward big cities, but you are certainly geared towards 
the most depressed areas of the country.
    Was there any--is there any correlation between the 
unemployment rate in the localities that won these contracts 
and the contract--the success in winning a contract? In other 
words, can you tell me that the hardest-hit areas, in fact, are 
who got this entire amount of obligated funds?
    Mr. Fernandez. I can't say that absolutely in terms of 
projects that were funded were----
    Ms. Norton. That is really not my question. All of your 
projects come from hard-hit areas.
    Mr. Fernandez. Correct.
    Ms. Norton. You can go to some States and find surprises--
for example, Pennsylvania has a lower unemployment rate than I 
thought it would have. I am asking whether there was a 
criterion among those used to award contracts that went to the 
unemployment rate?
    Mr. Fernandez. Yes. And in fact I appreciate you clarifying 
that for me. The EDA's programs are specifically limited to 
eligible areas, and that eligibility is based on unemployment 
numbers as well as average incomes. We typically use at EDA a 
24-month lag period, and that is by statute, to determine 
eligibility. With the ARRA, with the Recovery Act we actually 
had an opportunity to fine-tune our criteria, and we used a 
shorter period to reflect the urgent nature of the Recovery 
Act. So in that case it was 3 months.
    Ms. Norton. Mr. Fernandez, it would be helpful if you would 
submit to the Committee, and I would like a copy, the lists of 
those who applied and their unemployment rate versus those who 
succeeded and their unemployment rate so we can see that 
correlation. It is an important one and would help to clarify 
this matter.
    Ms. Norton. Now, I have a question for you and for Mr. Peck 
that is the same genre of question. You have obligated all of 
your money, but then apparently you have broken ground on 20 of 
the projects, and that would mean 45 million of the 147 
million, and that is 31 percent of the amount allocated.
    Mr. Fernandez. Correct.
    Ms. Norton. Now, one of the great issues that has arisen in 
these hearings, my own tracking hearings and these hearings, is 
the jargon and the difference between obligation and outlays.
    Now, the GSA has the same issue: 2.1 billion obligated, but 
only 184 million in outlays. Now, as far as the public is 
concerned, obligation may not mean very much. We know it is 
very pregnant with meaning, but one of the reasons that there 
may be dissatisfaction with stimulus is we keep talking about 
large amounts of money, but people do not see that money on the 
ground, even in the case of EDA where all of your money has 
been allocated.
    So I would like each of you to respond concerning outlays, 
which means that people are on the ground, weekly you are 
floating money out there to pay somebody who is on the ground. 
Whereas obligation, as far as we understand it, means that 
there is some money in the bank waiting to go on the ground.
    So, Mr. Peck, Mr. Fernandez, which of you would like to 
explain the discrepancy between obligation and outlays in your 
own figures today?
    Mr. Fernandez. I think it is pretty--it is a very relevant 
point. In our case 93 percent of our projects are expected to 
be initiated by July 1 of this year.
    Ms. Norton. Say that again.
    Mr. Fernandez. You know, to date we reported that a 
percentage of our projects have already been started in terms 
of breaking ground. As you noted earlier, in some cases 
construction projects--in all cases, in fact, for EDA--are paid 
on a reimbursable basis. So a project may actually start, but 
we will not disburse until the request for reimbursement is 
submitted.
    Ms. Norton. People will not work long without being paid.
    Mr. Fernandez. True. You would be surprised in terms of how 
some of our local agencies are more urgent about reimbursement 
than others.
    Ms. Norton. So you think the problem is at the local level?
    Mr. Fernandez. No. I think the issue with construction 
projects, there is often complex work that has to be completed 
before you can break ground. But my point is that by July 1 of 
this year, 93 percent of our projects are expected to be 
initiated in terms of the work will be--the designs will be 
completed, the ground will be broken, and the projects will be 
moving forward.
    Ms. Norton. All 68 grants will have ground broken----
    Mr. Fernandez. Yes.
    Ms. Norton. --by July. That is important.
    Mr. Peck, what is important is we began on--February the 
bill passed. I recognize that some of this period has been the 
winter, but some of it has not been the winter. Part of the 
spring, of course, was the tooling up after we passed the bill. 
In your case as well we have this huge amount. You seem to be 
on track to, in fact, get it spent--excuse me, get it 
obligated. I am very pleased with, after a great deal of 
trouble, you have done very good work with the apprenticeship 
so that we again begin to see something happening. I 
congratulate you on that. But of 2.1 billion obligated to see 
only 184 million, which means somebody is being paid, is a 
matter of some concern.
    Mr. Peck. Let me take you through a couple of different 
kind of projects but, first some numbers. We have about 300 
projects. We have 92 in the construction phase, which means the 
money is going to start to flow. And as I said, by September--
right now we are at about 10 percent of a ratio of outlays to 
obligations, actual spending obligations. By September we will 
be up to 25, 26 percent.
    Ms. Norton. Are you on track knowing that essentially the 
building period is coming up, it is sort of between late 
March--what is it, a 6-month period or so? You tell me--when if 
you want jobs, both jobs essentially are going to have to be 
created and on the ground in these spring, summer, early fall 
months?
    Mr. Peck. Depends on the area. We are building a new border 
station in Calexico, and we can go year round, and Calexico 
gets hot, but there is no snow for sure. But you are right, in 
a lot of areas it is seasonal.
    But on a large project, here is what has happened. There 
has been on a--take a large modernization on which we had to 
hire an architect or a large new building, we have had a lot of 
instances in which architects and engineers have worked around 
the clock to finish their designs. When they finish their 
design, their jobs stop, and then there is a little bit of a 
lag because we produce construction documents, and we go out to 
bid. It takes a couple of months to get people to bid on 
complex projects. We have done everything we can, by the way, 
to streamline fast track contract awards, and it takes a while 
before the buildings go in the ground. That is one issue.
    Second, however, is that while we are doing that, and I 
think this is important to note, we don't track it. We have 
been very conservative about what we claim as job retention and 
job creation so that when we award a contract to a contractor, 
and their people know they are going to have a job coming, that 
contractor can borrow and keep people on the payroll who might 
have otherwise been let go.
    Ms. Norton. Do you know how many jobs you expect to be 
created by your portion of the stimulus fund?
    Mr. Peck. By the end it should be around 60,000 jobs. We 
will have about 10,000 by--we changed the way we measure. We 
are doing it quarterly now, not cumulatively. But by the end of 
September, we will have 10,000 jobs created.
    Ms. Johnson of Texas. Thank you very much. Time has 
expired.
    Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Madam Chair.
    Mr. Secretary, I am really appreciative. South Carolina was 
one of those States that did get a $10 million grant to 
continue the funding from I-73. And I noticed in part of the 
criteria for the funding, you could use it either as a grant, 
or you could use it as a subsidy cost, TIFIA credit assistance. 
Tell me how that works. And I guess the States would make that 
choice, or is part of the funding mechanism? Is it direct 
either/or.
    Mr. Porcari. It is a very good question, sir. First, as you 
know, there are far more projects than we had funding. I-73 is 
a good example of a very badly needed but also expensive 
highway project that would be a direct connection to Myrtle 
Beach. What this does is gives the States the option of either 
using what we call challenge grant to either cover the TIFIA 
subsidy for a TIFIA loan, or to use it for any elements of the 
project financing that they would like to fund. The idea would 
be it can be a catalyst for the financing package for a project 
of that scope, and we will be flexible with the State in how 
they want to proceed.
    The indications we have gotten from different States on 
this process is they are going to probably approach it 
different ways, but what we wanted to do was give the maximum 
flexibility and use this as the catalyst to get the project 
going.
    Mr. Brown of South Carolina. Do you think--this is sort of 
forward a little bit to look at the job bill that is being 
created, I guess--did the Senate pass it yesterday; is that 
correct, the job bill?
    Mr. Porcari. Yes.
    Mr. Brown of South Carolina. How many dollars' worth of 
highway funding is going to be in that bill?
    Mr. Porcari. Thirty-eight billion, I believe. We would 
presume that it would operate essentially the same way that the 
Recovery Act funding did. So the same types of projects would 
typically be available; the time frames would presumably be 
similar. We are geared up and ready to go for it.
    Mr. Brown of South Carolina. Well, that means that the 
money will be disbursed back to the States by some kind of 
formula, or these TIGER grants will actually be allocated by 
grants?
    Mr. Porcari. Like the Recovery Act, we would anticipate it 
would work both ways, that the majority would be formula, the 
way the States are used to it now, but there would also be an 
ability through the TIGER grants to do the same thing that we 
did with these, which is fund projects that do not easily fit 
into any other categories.
    I would point out also that in other fiscal year 2010 
funding, there will be another round of TIGER grants, $600 
million. We expect to award those by the end of this calendar 
year. So the types of projects and some of specific projects 
that applied for but did not get funding in this round could be 
eligible for the next round. And we have been encouraging 
applicants that were not successful in this round to come in 
for a debriefing so we can maximize their opportunity for this 
next $600 million.
    Mr. Brown of South Carolina. So you will ask for additional 
grants, or you will just be able to use those same grants and 
go back and requalify.
    Mr. Porcari. They will have to resubmit. We are required to 
put out a separate notice of funding availability, which we are 
doing. Essentially you can take those same applications, 
strengthen them, and again we would encourage people to get a 
debrief from us and then resubmit them.
    Mr. Brown of South Carolina. I don't remember if you 
remember all the details or not, but that was about a $300 
million request for I-73.
    Mr. Porcari. Yes.
    Mr. Brown of South Carolina. We were able to get 10 
million. South Carolina is one of those States, as Mr. Mica 
mentioned, 12.6 percent unemployment. In this particular region 
in the Dillon parts of South Carolina, the unemployment was 
probably approaching 20 percent. So this would be a win-win for 
us so we could exceed that somehow.
    And one other thing, just a side note, Madam Chair, I know 
it is a different subject, but back in South Carolina we were 
able to create, my Chair, the Ways and Means Committee, what we 
call an infrastructure bank. I know we have been talking about 
that as we go through the reauthorization bill for the next 
bill highway bill. But I don't know exactly how far you have 
actually taken a look at it, but it seems we need some way to 
leverage the funding we have to maximize the projects to create 
more jobs. I thought that may be another tool we could use.
    Mr. Porcari. It certainly is another tool, and in the 
President's budget a proposed infrastructure fund is part of 
the proposal, an infrastructure banklike proposal, which would 
be another tool in the tool box for these projects. Again, on 
I-73 we do recognize both the need and the economic distress of 
the area. That is a great illustration of a project that would 
be jobs in the short term and then long-term reinvestment from 
an economic development plan, paying off year after year after 
year.
    Mr. Brown of South Carolina. I think it is a window of 
opportunity in the recovery mode that we find our country in 
today that we spend the money for infrastructure improvement. 
We know the economy is going come back, and we are going have 
the infrastructure that will move commerce and create jobs in 
the future. Anyway thank you for your service.
    Mr. Porcari. We agree, sir.
    Mr. Brown of South Carolina. Thank you, Madam Chair.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Brown.
    Ms. Brown of Florida. I want to piggyback on what 
Congressman Brown just said, because one of the things about 
this Committee--and I want to use the disclaimer here that one 
of the things I have enjoyed about being on this Committee is 
the nature of the bipartisanship of this Committee and that we 
work together. And I want to be clear that this administration, 
the President, the Vice President and Secretary LaHood, has 
worked with this Chairperson and with the Ranking Member as far 
as high-speed rail is concerned. And I want everybody to be 
clear that they have worked with us due diligently. They have 
come to Florida; they have talked to the Florida officials. And 
I am very pleased that we had transparency as far as the 
projects are concerned, as high speed is concerned in this 
country. And I just want to get that on the record before we 
get started.
    And also about the stimulus, let me tell you, because of 
Mr. Oberstar and the hearings that we are having today and the 
hearings that we have had, we can truly say that we know how 
the dollars have been spent. We can piggyback on the States 
that have received the dollars and where those dollars are. And 
Members of Congress and to the city council, to every single 
level, we have been able to contact the officials and make them 
move those dollars out.
    And so I just want to put that on the record. This is 
bipartisanship. I don't understand how sometimes the rhetoric 
break down for whatever the moment or the time, but I want to 
be clear that I am very pleased with this administration, and, 
in fact, I, as Chair, am going to have hearings in Florida. We 
are going to take it to Florida and California, but I want to 
go to two or three cities in Florida because we have benefited 
from high speed, and it is an example of how this country can 
benefit with high speed, and it can change the conflicts of 
this country.
    I mean, 50 years ago when Eisenhower and the Members of 
Congress decided to do the highway system, that was great for 
the country. Now we are in a new era. All of our competitors 
are moving forward. I just returned from Germany where you can 
get on a train and you can go 200 miles in less than an hour. 
That is the future of this country, and we need to work 
together in a bipartisan way and cut down on the rhetoric.
    Now, let us go to Mr. Carper. Would you please tell me--and 
my question--I am very happy with the project that you did in 
Sanford, Florida----
    Mr. Carper. Yes, ma'am.
    Ms. Brown of Florida. --that the President and the Vice 
President was one of the first announcements that is in both 
Mr. Mica and in my district. Can you tell us how many jobs that 
is going to generate?
    Mr. Carper. How many specific jobs? I can't tell you that 
specifically today, Congresswoman, but I would be happy to get 
that to you very quickly.
    Ms. Brown of Florida. Well, I can tell you that we are very 
excited about that project.
    Mr. Peck, one of the things that you talked about--and my 
question is why is it we don't do more design build, because 
basically it takes months to plan and then more months to get 
it out? Why can't we have more demonstrated projects that shown 
design build, because that would actually really put people to 
work and cut down on the number of the amount of time. We have 
done some of that in VA, and I am very pleased with the 
project. I don't understand why it will take us, let us say, 5 
years to build a hospital where in the private sector right 
next door can do it in 18 months. And this is a Democrat 
talking here.
    Mr. Peck. You are talking to a private-sector real estate 
person, too. In our Recovery Act projects, in fact, we are 
doing a lot of them design build because it does speed up the 
process. The reason I think that traditionally we haven't done 
them so much is some of our projects have had longer lead 
times, and getting agreement on the requirements from agencies 
are complex. Not a good excuse.
    We are doing a lot more design build. We are also using 
another process called the construction manager is constructor, 
which also allows us to fast-track the design and get a builder 
on board early on so the architects and builders are working 
together at an early stage in the process.
    Ms. Brown of Florida. So this will help expedite some of 
these projects?
    Mr. Peck. Yes, ma'am.
    Ms. Brown of Florida. Mr. Porcari, tell us something about 
the TIGER grants. We are so happy that we got a billion-plus 
for the initial round, but there will be other rounds with the 
TIGER grants. Tell us for everybody in the room that is 
interested in the TIGER grants, because that was one of the 
hottest items all over the country. Everywhere you went, people 
had projects that didn't actually fit into certain categories, 
and so it is a great deal of pent-up desire. I think you all 
received how many applications for a limited amount of money?
    Mr. Porcari. We received over 1,400 applications, $60 
billion worth of requests for $1.5 billion worth of funding.
    And you are correct, ma'am, it is a great program in that 
projects that are of regional or national significance that 
don't necessarily fit in the 108 or so of our stovepipe 
programs were eligible for this. If you look at the awards 
around the country, these are projects that for the most part 
typically can't get funded any other way, but are critically 
important from an economic development competitiveness and jobs 
point of view.
    So we were evaluating things like the condition and 
performance of the existing systems; whether it was highway, 
freight rail, port or any others; livability; environmental 
sustainability. Those were some of the explicit goals that we 
had in this program.
    And as you point out, there is another round. That was $1.5 
billion nationwide. The next round will be $600 million. It 
will be awarded by the end of this calendar year.
    Ms. Brown of Florida. Thank you all for what you are doing. 
Transportation received less than 4 percent of the money, but 
we generate about 50 percent of the jobs, so thank you again.
    Ms. Johnson of Texas. Thank you again.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Kind of piggybacking on what Congresswoman Brown said, this 
is one of the pleasures of working on this Committee is the 
fact that it is not partisan. And frankly, this Chairman has 
been emphatic in making sure the money is well spent. We have 
to be emphatic because we have seen where some of the stimulus 
money has gone elsewhere; $18 million for a Web page of 
stimulus money, funds going to congressional districts that 
don't exist, stimulus funds going to political campaign 
consultants. Now, if that happens in another country, we don't 
call it waste, we call it corruption.
    But this Committee and this Chairman, Chairman Oberstar, 
has been dead set against letting that happen at least in the 
area of responsibility that the Committee has oversight. And 
once again I need to commend that Chairman and this Committee 
for that.
    I do want to talk about the TIGER grants. So TIGER grants 
were, again, stimulus money; is that correct?
    Mr. Porcari. That is correct.
    Mr. Diaz-Balart. So it is to stimulate the economy because 
the economy is hurting, and because particularly in some States 
are doing worse than others.
    The State of Florida--I know you have already heard it from 
Mr. Mica--the State of Florida submitted, if I am not mistaken, 
multiple requests. I believe it was 115 projects requested from 
Florida that included local governments and FDOT. Now, FDOT 
only requested four projects. Florida, which is in the top 10 
of unemployment numbers, received zero money from TIGER; is 
that correct?
    Mr. Porcari. That is correct.
    Mr. Diaz-Balart. So you could not find one project in 
Florida, not one that qualified for TIGER grants?
    Mr. Porcari. No, sir. There were worthy projects all over 
the country that did not get funded. As I mentioned, only about 
3 percent of the our projects were able to--I would point out 
that economically distressed areas is something that we paid 
careful attention to. You previously saw a slide from Mr. Mica 
of the State unemployment numbers. Especially the large States, 
the unemployment varies, obviously, in different parts of the 
State. We were trying to zoom in on the particular pockets of 
higher distress through the economically distressed areas. As I 
previously testified, 60 percent of the projects went to 
economically distressed areas.
    Mr. Diaz-Balart. I understand that. Is there any debate 
that Florida is in the top 10 of unemployment?
    Mr. Porcari. No, we are not debating that. It is the lack 
of enough TIGER funding to satisfy the need.
    Mr. Diaz-Balart. I understand that. You have a number of 
States, and I am sure they are worthwhile projects. I am not 
saying they are not worthwhile projects. We have a number of 
States that have much lower unemployment, including lower than 
the national average, which obviously is very high, that 
received millions of dollars, and Florida, that is the top, top 
of the Nation as far as unemployment, received zero dollars. I 
mean, tell me how that is justified.
    Mr. Porcari. First you previously heard Florida received a 
very significant high-speed rail grant as part of Recovery Act 
funding. So in addition to the rest of the recovery funding, 
Florida received one of the single largest----
    Mr. Diaz-Balart. Let me stop you there. The other States 
that received high-speed rail, did they also not get any money?
    Mr. Porcari. The unemployment and economically distressed 
areas, sir, is one of the criteria. It is not the only one. It 
is a combination of a couple of things.
    Mr. Diaz-Balart. Correct me if I am wrong. I guess you are 
trying to justify Florida getting zero because they received 
high-speed rail lines. If that is the case--let us not lose 
that thought, you brought that up--are our States that receive 
high-speed rail money, did they, any of those States, receive 
zero TIGER grant money?
    Mr. Porcari. I don't know offhand.
    Mr. Diaz-Balart. Mr. Secretary, again, look, we are adults 
here. If you are going to use that as a justification, and then 
let us be consistent, please. If you are telling me one of the 
reasons Florida--and by the way, that may be the case, but if 
you are telling me that one of the reasons Florida did not get 
TIGER grants is because it got high-speed rail, and if then 
that was the policy----
    Mr. Porcari. No, sir, that was not the policy.
    Mr. Diaz-Balart. So you are taking that back.
    Mr. Porcari. No. If I can just clarify, I did not mean to 
imply that States that got high-speed rail grants would not get 
TIGER grants, and that was a criteria. What I did want to point 
out is that in addition to the formula recovery money that 
Florida got, it did get a very significant high-speed rail 
grant that was awarded on the merits. With both the high-speed 
rail program and the TIGER program, we were in the unfortunate 
position of having far more meritorious projects than we could 
possibly award.
    Economically distressed areas was one of the 
considerations, and it is an important one because both 
recovery and reinvestment are the aims of the bill. I would 
encourage, and I have had the discussion with your State DOT 
secretary about this--I would encourage the applicants for the 
new TIGER projects to come and let us go through a debriefing 
on the strengths and weaknesses of the individual proposals so 
they can maximize their opportunity for the next round.
    Mr. Diaz-Balart. I appreciate that, Mr. Secretary. I think 
that is a worthwhile exercise, a worthwhile effort, and I am 
grateful for that. I just want to make it very clear for the 
record, I don't know however you cut it or look at it or 
whatever justification or whatever criteria, there is no 
explanation why Florida was not able to qualify for one single 
dollar of TIGER grants. I am sorry, sir. I appreciate the fact 
that you are willing to look at it and look at their proposals 
and make sure that they are done better, or whatever it may be, 
but there is no justification, absolutely zero justification, 
for Florida to have gotten skunked from TIGER grant money. 
Thank you.
    Ms. Brown of Florida. Mr. Chairman.
    Mr. Oberstar. [Presiding.] Ms. Brown.
    Ms. Brown of Florida. I just want to say that I, too, am 
disappointed that we didn't get TIGER grants, but if you turn 
to Florida and you look at every single category, Florida has 
received significant amounts of taxpayer dollars. And part of 
the problem, when Florida initially received money, it was 
sitting in Tallahassee, and we had to move it. We were 51, Mr. 
Chairman. If you had not brought it to our attention--it is 
only 50 States--in the States using the transportation dollars, 
51 out of 50 States. So if we didn't move it--and once we got 
on top of it because of your leadership, Florida became 36.
    So it is not like money is not sitting in Tallahassee. They 
need to move it out into the community.
    Mr. Oberstar. It is a State implementation program.
    Mr. Michaud is next.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Mr. Secretary, first of all, I want to thank the Department 
of Transportation for getting the money out quick, as you have 
heard, the infrastructures funding, although the stimulus 
package actually has been one of the ones that has been able to 
get the most out and had a big impact.
    In your testimony you said that the President made clear in 
the State of the Union Address that his number one priority in 
2010 is accelerating job creation, the pace of job creation. 
Transportation is an important part of his plan to put 
Americans back to work, and he urged Congress to consider 
supporting a jobs bill. That is great, and as you heard, the 
Chairman and others Members of this Committee were very 
concerned of the fact that the same administration requested an 
18-month delay in the transportation reauthorization. And when 
you look at the impact that the stimulus money would have had, 
it would have been a greater impact. However, having talked to 
contractors, they actually put on hold purchasing equipment, 
decided to pay overtime versus hiring new people because they 
are concerned whether it is 18 months, might be 24, might be 36 
months.
    I am concerned of the fact that some of the individuals 
surrounded by the administration--I know Chairman Oberstar 
mentioned Larry Summers, which is not--he has not been very 
supportive of infrastructure funding. How committed is the 
administration in creating jobs--although it is a year late--
but how committed are they in creating jobs, and if they are so 
committed, why aren't they really aggressively moving to get 
Congress, which we are prepared in the House, to pass the 
transportation reauthorization bill? That is a job-creation 
bill.
    Mr. Porcari. Sir, one very important part, from the 
transportation perspective probably the single most important 
part, of the Senate jobs bill is an extension of the surface 
transportation authorization until the end of this calendar 
year. That starts to provide the kind of certainty and 
predictability that you illustrate.
    I would also mention, because it needs clarification, I 
believe, there is a difference in the Recovery Act funding 
between outlays and obligation. And the important part is 
obligation, because we work on a reimbursable basis, the 
obligation is when the job starts, it is when the work starts. 
We are reimbursing when the work is done. This is like buying a 
new automobile. You don't pay the manufacturer to build it. 
They build it, they deliver it, you test-drive it, and then you 
pay for it.
    So, the jobs, the investment are up front. The Federal 
reimbursement is at the back of the process.
    Mr. Michaud. You talked about predictability. I understand 
what the Senate did on their bill. They are going to have part 
of the funding similar to the TIGER. We heard some concern with 
the administration giving out TIGER grants and some other 
accusation as it relates to that. Do you think for 
predictability it is better for all the transportation funding 
to run through the funding formula, for predictability?
    Mr. Porcari. I think that the TIGER grant process in 
particular has shown that there is a value for both, especially 
merit-based projects that don't fit within one of our existing 
formulas and typically can't be funded any other way. One 
illustration in the TIGER grant awards you saw last week would 
be our freight-rail capacity projects, where it is incredibly 
important from an economic development perspective for the 
Nation, but it can't get funded any other way. A program like 
TIGER is the only way we are going to be able to make those 
investments. So the combination of formula funds which the 
States and our other recipients know and are good at getting 
projects out the door and then merit-based projects like TIGER 
for some of the ones that don't fit in those categories is 
actually a good combination.
    Mr. Michaud. Mr. Carper, you mentioned the money that your 
company or Amtrak is putting for new locomotives and what have 
you. A couple of questions. One is that I was reading a 
newspaper article where 80 percent of the money has gone to 
foreign manufacturing for the wind turbines. Is all your 
funding here locally? That is my first question.
    And for those that belong or are part of the 
administration, also reading an article this last week where 
the U.S. Trade Representative Ron Kirk is encouraging Mexico to 
sign on to the government procurement agreement so that Mexico 
can actually have access to some of the stimulus funding which 
was intended to create jobs here in the U.S.
    One question to Mr. Carper and for those involved in the 
administration, isn't the administration coordinating what is 
happening, or are you going to encourage other countries to 
access the stimulus money?
    Mr. Carper. Thank you, Congressman.
    First of all, the 80 vehicles that I mentioned and the 
locomotives are all in the rebuild mode, so we are 
reconstructing those, but certainly Amtrak is certainly going 
to comply with the Buy American component. That has been a 
great deal of conversation about that, and we are committed to 
doing that. We are hopeful it will be the genesis for 
restarting a big manufacturing base for rail.
    If I might, I want to make sure that one thing is clear. 
That has to do with the transparency, and, Congressman, if you 
can bear with me, it will probably speak to the question that 
you have. I want to make sure that I make it very clear that 
the $1.3 billion--and in there, if you go on our Web site, you 
will be able to see where we are spending every one of those 
dollars. There was a reference earlier about some other 
projects, that while those projects will be on our service and 
our lines, the money is not coming to Amtrak, and so it is not 
reflected on our website. But the money that comes directly to 
Amtrakis shown--we are very proud of our transparency, and I 
want to make sure that we made that point that our transparency 
on our Web site is first rate. So I hope that answers your 
question.
    Mr. Michaud. And, Mr. Chairman, I noticed the 
administration officials are silent on that issue about job 
creation. If they want to submit it to the record, Mr. 
Chairman. Because my concern is the President has been talking 
about job creation here at home; we have heard the panel here 
talk about what good that the stimulus package has done for 
Americans. But, by the same token, you have part of the 
administration encouraging Mexico to sign on to the Government 
Procurement Agreement under the WTO so they can get around the 
Buy American provision. So you have one hand saying one thing; 
another hand is encouraging countries to access out what is 
remaining of our stimulus package. And that is a big concern.
    If they can't answer it today, if they could provide the 
Committee with their answer of why they are encouraging other 
countries to access the stimulus funding.
    Mr. Oberstar. We certainly expect answers to those 
questions.
    And the fundamental principle of the Buy American Act goes 
back to the 1930s. In fact, it was enacted in 1930. And it was 
rigorously enforced by Roosevelt in the WPA. And we simply 
reverted to this principle, re-enforced this principle in the 
stimulus. These are U.S. tax dollars. The purpose of the 
programs is to put Americans to work and use American materials 
in this product.
    The Chinese are not hiring Americans. They are not buying 
American materials in their $580 billion stimulus program. Nor 
have the Japanese, nor have the South Koreans, nor has the 
European community. France has a $47 billion stimulus program; 
they are not out here looking to buy American equipment or 
materials to put into their stimulus programs.
    And in other areas, other arenas, fine, that is a different 
matter. But the purpose of this program is use American tax 
dollars to put Americans to work.
    Mr. Peck. Mr. Chairman, may I answer, too, by saying, in 
some cases and, as you know, under Buy American under the 
Recovery Act, we can buy foreign goods if we don't have 
American goods----
    Mr. Oberstar. There are exceptions in the law that are 
specified particularly, and there is a process by which you 
have to proceed to resolve those matters.
    Mr. Peck. Correct. And I think one of the--for us at GSA, I 
can tell you that one of the things that we think is an 
opportunity we have been given in the Recovery Act is to buy 
some green building products in the kind of bulk in which we 
can help make the market for American manufacturers to start 
making them. There have been cases where we haven't found an 
American manufacturer. We have been approached by some who have 
said if we can buy enough of their product, they will be able 
to set up a plant here. And we are hoping to have a couple of 
those successes to report to you.
    Mr. Michaud. I agree. And the whole idea--and I understand, 
like the Chairman said, there are provisions if we can't buy it 
here. But for the administration to be encouraging countries 
that do not qualify under GPA to become qualified so they can 
go after the stimulus money is wrong. No two ways about it, it 
is wrong, dead wrong.
    Mr. Porcari. Mr. Chairman, if I may, I just want to make 
clear for the transportation part of the stimulus program, Buy 
American has applied from the beginning. We have granted no 
waivers that did not meet the statutory criteria. We had one 
transit project that actually started discussing that. We made 
it clear that the project would not go forward if that was the 
case.
    Mr. Oberstar. You are hearing it straight from the Members 
of the Committee.
    The gentleman's time has expired.
    Mr. Cao?
    Mr. Cao. Thank you very much, Mr. Chairman. And thank you 
for the support that you have shown, especially to the States 
and, more particularly, to the city of New Orleans in this 
recovery process. I know that you have been a strong advocate 
of high-speed rail.
    And that would be the first question that I would ask 
Secretary Porcari. Will there be a second-round application for 
high-speed rail?
    And, first of all, before you answer, I would like to thank 
the secretary for--or at least the decision to provide New 
Orleans with $45 million in TIGER funding. I would like to 
thank him for coming down to New Orleans to take a look at the 
city's streetcar system and recognizing that it is a vital part 
of the city and to the economic recovery of the city.
    So, if you can answer my question about the second-round 
application for high-speed rail.
    Mr. Porcari. Yes, sir. First, on the TIGER streetcar grant 
for New Orleans, that is a great example of both economic 
stimulus and livability and how those fit together in a long-
term investment that will help the country.
    Yes, there will be a second round of high-speed rail 
grants. We will be working directly with the applicants on 
that. We look forward to that, knowing that the high-speed rail 
program in the Recovery Act was the first step, an important 
first step, but just the first step for what will be a 
nationwide, comprehensive high-speed rail network.
    Mr. Cao. Can you provide me with the time with respect to 
when the second-round application will be requested?
    Mr. Porcari. Yes. In rough terms, we anticipate making the 
awards prior to the end of this calendar year for those. The 
criteria and some of the specifics on that we will be happy to 
get to you. They are being developed right now.
    Mr. Cao. And it will be from the stimulus money so that 
there won't be any matching requirements from the States?
    Mr. Porcari. These will actually be 80-20. They will 
require a 20 percent match. These are post-stimulus dollars.
    Mr. Cao. Okay. Thank you.
    Mr. Hooks, I have noticed that you have been sitting there 
very quiet, and I don't want to leave you out of the 
conversation. And my question to you is, how many jobs have 
been created through the EPA stimulus funding? And how many of 
those jobs go to, for example, inspectors who go out to sites 
and to inspect sites?
    Mr. Hooks. I cannot necessarily break down the precise 
nature of what those jobs are. Right now we estimate about 
6,800 jobs have been produced or created or retained at this 
point in time based on recipient reporting.
    Mr. Cao. Well, Mr. Hooks, I would like to put some of those 
6,800 people to work. There is a church in Norcross, Georgia. 
It is a Vietnamese-American church. It serves about 1,100 
families. There is a waste transfer plant that is about to be 
built right next to the church. If I were a student looking out 
the window, I would be looking straight at the waste transfer 
station.
    So I have no idea where the Federal jurisdiction is, but it 
seems to me that there is an environmental issue if there is a 
waste transfer station right next to a fully functional, 
operating church. So if you can have your people look into that 
for me, I would really appreciate it.
    Mr. Hooks. We would be happy to follow up on that.
    Mr. Cao. If you can have your staff contact my staff, we 
can give you the information and you can send people out.
    Mr. Hooks. I would appreciate that. We will. Thank you.
    Mr. Cao. And, Ms. Darcy, this question has really nothing 
to do with the stimulus jobs, but there is an issue that is 
being raised in the Second District and also in the adjacent 
congressional district. Recently, a Federal judge issued a 
judgment after trial holding the Army Corps of Engineers 
responsible for the floodings in St. Bernard Parish, as well as 
in the Lower Ninth Ward.
    And the question that many of my constituents have asked of 
me to ask you is whether or not the Army Corps of Engineers 
planned to pay on the judgment. What is the Army Corps's plan 
to do?
    Ms. Darcy. Because of the nature of this ongoing 
litigation, it is not something that I can address at this 
time. The Department of Justice is still looking at that 
decision.
    Mr. Cao. Okay.
    That is all the questions I have, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. Cao.
    Mrs. Napolitano? Oh, you have--Ms. Richardson?
    Ms. Richardson. Thank you.
    That was very kind of you, Mrs. Napolitano.
    Mr. Porcari, first of all, I want to say, thank you for 
being here, and all of our folks who have testified today. And, 
Mr. Porcari, I had an opportunity for you to come to my 
district, which I greatly appreciate.
    I would like to build on Ms. Norton's request that this 
Committee would receive a report or a map or something that 
gives us an overlay based upon what projects have actually been 
funded and how that relates to the unemployment and the 
economic-under-stressed areas. I remember Ms. Edwards and I, 
when we first talked about supporting the stimulus package, 
many of us talked about having the commitment that the dollars 
were going to go into the unemployment areas.
    And also, the second question that I wanted to ask that 
wasn't in your testimony and we talked about last time that we 
would get this time and I don't see it, and that is: What new 
contractors have been able to now play in this arena that were 
not currently working at the time when this all started?
    And I know there has been a big play on words of whether it 
is jobs that were sustained versus jobs that were created. But 
if all we did out of this whole process of over $800 billion is 
only to ensure that the people who were already working got to 
work a few more hours, that certainly was not my objective.
    So, if you could--and this is my second time requesting 
this--that the report that would come to this Committee at our 
next meeting would include the information of what new 
contractors, minority contractors in particular, have been able 
to gain employment, gain contracts in light of all of this 
money that came out, and then also a record of how this 
overlays economically with unemployment in the economically 
distressed areas.
    Mr. Porcari. We will do that. We will need to get the 
contractor information from the recipients, but we will work 
with them to do that.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Richardson. Okay.
    My next point is, I noticed I was a little surprised in 
your testimony, it gave a recap of what has happened with the 
money, but it didn't really talk about lessons learned. And 
because I unfortunately only have 3 minutes and the next thing 
I need to talk about is pretty important, I would just like to 
ask that you would forward to the Committee, okay, in light of 
what we did with the stimulus, if we were to do something 
again, what would be some of the key things that you have now 
heard out across the country that would enable us to spend the 
money in the best way?
    And let me give you a couple examples. I have heard in my 
community that because of the way that the language was 
written, there has been a greater focus on short-term projects 
versus long-term projects because it had to be shovel-ready. 
Well, you know, yeah, we have done a lot of paving, but there 
were some other very key projects that needed to get done that 
couldn't get done because it was going to take longer. Also, 
there was an issue about funding being allowed for design and 
some of these things. So I would just be very curious to hear 
what you have learned as you have been going out and about, and 
if you could supply it to this Committee.
    Finally, I would like to actually chime in to my colleague 
from Florida. I was a little disappointed with the TIGER 
allocations. And not only am I going to request my particular 
area to get a debriefing, I would like to get a debriefing. 
Because I, to be very frank with you, sir, I find it hard to 
understand how you can fund port communities, fund goods 
movement throughout the United States, and yet fail to fund the 
largest one in the United States. It doesn't make sense. And 
so, I would like to have a real serious conversation to 
understand what was the criteria, how things were determined to 
be selected, and what we need to do moving forward.
    I believe, as a Member of Congress, we are a part of the 
U.S. House of Representatives. So when you came and you did the 
tour, I made sure that you went to the Colton Crossing because 
I believe I have, as a Member of this Committee, just as much 
obligation to support Mrs. Napolitano as I do Mr. Baca and so 
on. And I applaud what was done. I have no problems with the 
ones that were picked, particularly in California. I think they 
were right on. But I think there were some others that should 
have been done, as well, in addition to that. And I think it is 
glaringly a problem.
    It further alarms me when I hear your comment about high-
speed rail, because when you come from a State like California, 
okay, California, yeah, we got $2.3 billion, but the route is 
from, for example, Anaheim to Los Angeles. So even though that 
is right next-door to me, that is still not--so if you are 
looking at, well, okay, LA got X amount and so we now need to 
do some over here, it is not necessarily reflective. And we 
need to make sure whoever is making these decisions understands 
the map, because it doesn't make sense.
    And, with that, I have 2 seconds. So I look forward to 
speaking to you.
    Mr. Porcari. Thank you. We will be happy to do the 
debriefing and talk about the project criteria. I will say 
again, both high-speed rail and the TIGER grant process, merit-
based process, overwhelming demand, and we look forward to the 
next rounds of them.
    If I can just spend one moment, if I may, ma'am, on the 
lessons learned. One, clearly, is reporting requirements, 
streamlining them, because the States, in particular, had 
multiple reports they had to put together. It turned into a bit 
of an administrative burden.
    The other comment that you made, which I think is a very 
important one, is about the short-term resurfacing-type 
projects versus longer-term. I think of the Recovery Act as a 
three-stage rocket, and what you saw in the beginning, in the 
first 120 days, were the easy, already-permitted projects that 
you could get out the door, which tended to be resurfacing. The 
next 120 days and leading up to now, you tended to see and we 
are seeing now much more complicated, much more expensive 
projects coming on line that were close but not ready to go to 
bid in the first 120 days. And then, finally, the third stage 
of that rocket really is the things like the TIGER grants and 
the high-speed rail, which have a longer time frame, typically, 
than the other two parts I just described but will really pay 
off in the future.
    Ms. Richardson. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Let's see. Mrs. Napolitano, you are next.
    Mrs. Napolitano. Thank you so much, Mr. Chair. And thank 
you for allowing me to yield over to Ms. Richardson.
    I have a lot of questions and probably will have to be in 
writing, but the first one is to Ms. Darcy.
    You have great people in LA. Colonel Magness works 
beautifully on the Whittier Narrows. And that is one of the 
areas that I wanted to bring up. Because, in November of last 
year, I handed you a letter in regard to the ability to be able 
to raise the additional three feet in the conservation pool. I 
haven't heard anything. There has been some kind of a delay at 
headquarters, your headquarters, in being able to allow the 
county to move forward with that. It would allow for probably 
1,100 acre-feet to be retained in that pool for replenishment 
for the basin. And I have a copy of it; I will give it to you.
    But I certainly would want to make sure that that moves 
forward so that that can be done. It would save a lot of water, 
and given California's drought situation. So, thank you very 
much for that. And I won't belabor it. I know you work great 
with us in our area.
    To Mr. Peck on GSA, the areas in my district that have been 
working with GSA includes the Norwalk Tank Farm, which is an 
area that is contaminated. It would be nice to be able to have 
the government release that contamination site, continue to 
clean it up, but be able to have some of that money be able to 
be in the pocket of GSA and the government for use in other 
areas. And I don't want to follow up on that right now, but I 
would like to maybe speak to you on that.
    And, Mr. Porcari, the grade separations, as part of the 
TIGER grants, as you well know, the Alameda Corridor going 
straight to my district is a--even Mr. Chair has deemed it of 
national significance, a corridor of national significance. Yet 
those separations--there are 54 going through my district, 
which bring in all the 40, 50 percent of the Nation's goods to 
the rest of the country. Those are project-ready, ready to go. 
They have already done most of the work. Yet we have very 
limited funds to be able to get that.
    Now, the railroads need to be forced, and hopefully someday 
we will be able to put into effect laws that will require them 
to put more funding into participation of grade separations, 
because they benefit in getting the goods on time delivered to 
the rest of the Nation.
    Those are some of the things that I have in mind. The high-
speed rail, I love it. And I am sorry, Ms. Brown, great job. 
California is getting a lot of funding for that. And like Ms. 
Richardson was stating, it is going through, yet there is very 
few--I had to force the issue with the High Speed Rail 
Authority to sit with the locals, especially in my area because 
a lot of it goes through my area, to be able to determine 
whether, are they talking eminent domain? Have they purchased 
the right of ways? Which they have not. Have they talked to the 
locals about the ability to go through the communities? The 
cities are saying, no, you are not. So, while they may have 
plans, they are going to run into legal objections from the 
communities they plan to go through.
    And I certainly have some concerns and some issues, but I 
wanted to sit and discuss with somebody and bring the people 
who are actually going to be affected to the table, so that 
there is at least an understanding of what--if they want to go 
through it, fine. I need mass transit. I really don't need 
high-speed rail in my area. I need to move my masses. There is 
12 million people in LA County alone that need to go to work. 
And we only have bus transit. And, as you well know, you have 
one accident and you have a tie-up.
    So those are just mostly comments that I want to be able to 
be sure that we look at. I have just recently heard that the 
cost of going from San Francisco to LA was deemed to be 55. It 
has now gone to 105. And this is just mere--how would I say--
speculation, because it is not built yet.
    I just want to ensure--and I need the dialogue on the 
right-of-way issues and maybe have somebody come to my district 
and talk to the communities involved. They have done an MOU 
with the High Speed Rail Authority, but we have no idea where 
they are moving forward, because, as Ms. Richardson is stating, 
it goes from LA--it doesn't go through our districts, in many 
areas.
    Comments, very quickly? Do any of you request from your 
contractors information about how many jobs have been created 
with them? Because we--I hear it in my district, people saying, 
well, we have gotten jobs developed out of the stimulus money, 
but yet I have no idea where those jobs are coming from. And if 
you would request your contractors to report to you how many 
jobs have been developed, it would be very helpful, because we 
keep hearing that there is no job development.
    The other area in the lessons learned is, we are going to 
have 10,000 veterans coming home starting in March, 10,000 a 
month, throughout the United States. Are you making any 
provisions for them to be hired first? Because right now one of 
the highest homeless population is women veterans. I take great 
exception to that. They have served this country; they need to 
be able to be put to work so they can be able to get back into 
society.
    Another one would be the projections of some of these 
projects, because everybody wants to be able to bid on 
projects. Have you determined if there is any excess money left 
over from projects done to be able to be put into new projects 
because they are not going to use it? I am hearing this from 
some of my water projects in my Subcommittee. And those are 
things I think this Committee would like to know. If you are, 
then what can we do to be able to alert some of the 
communicates that have high unemployment or that have a greater 
need to be able to move projects forward that are already on 
line, that can move forward? I wouldn't say 30-day shovel-
ready, but at least maybe a 6-month period.
    And, with that, Mr. Chair, I have gone over my time. Thank 
you for your indulgence.
    And I certainly would like to hear some answers if anybody 
is willing to comment.
    Mr. Porcari. Ma'am, I would love to.
    Starting with where you ended, the money left over from low 
bids on projects, we have experienced that in our recovery 
projects across the board. The States' transit authorities and 
aviation eligible projects have been able to recycle that money 
and put additional projects out.
    One example: We originally thought we would do about 300 
airport improvement projects. We have done 360 because of the 
good bids. So the money is going right back out for additional 
projects. I believe my colleagues are actually doing the same. 
And that is true across the board.
    I will be very happy to convene a meeting with the High 
Speed Rail Authority on the issues that you brought up. I would 
point out, we have been pushing the applicants on high-speed 
rail very hard, in this case the California High Speed Rail 
Authority, to get their act together in the sense of working 
with all of the stakeholders, working as regions, not as 
specific areas, not working as one State where they cross State 
boundaries. The successful applicants are the ones that are 
actually doing a good job with that. So your point is well-
taken. I will be happy to set that up.
    And then, finally, if I may, on the Colton Crossing 
project, I think what it shows, more than anything else, is how 
dire the needs are for those improvements. And for those not 
familiar with this project, this is a freight rail improvement 
where two major Class 1 railroads intersect. And when you have 
40 percent of the Nation's imports coming through that one very 
small pipeline, it is a critically needed improvement.
    The at-grade crossings that you mentioned are also 
critically needed, but I think it illustrates, more than 
anything else, how far behind we are in our infrastructure.
    Mrs. Napolitano. Thank you.
    Mr. Carper. Congresswoman, if I might, we do track the 
jobs. We do it in work hours. And we do that consistently, and 
that is reflected on our Web site.
    And I would like to make the comment, also, that Amtrak has 
been longing for so long to have capital funds that, if we had 
the ability to move it, if bids come in under, et cetera, we 
are certainly putting it to good use. So I think you can be 
assured of that. And we would be happy to talk to you further 
on that.
    Thank you.
    Ms. Darcy. If I might address your concern about our 
returning warriors, we are using $3 million of ARRA money to 
train returning veterans in what is called our Veterans 
Curation Project. We are training them to have skills to do 
digitization and other skills to help us in our archeological 
cataloging. We have an ongoing project now in Augusta, Georgia, 
one in St. Louis, and now one here in Washington, D.C. We are 
hoping that this kind of project can get additional funding--
and we are looking toward next year's budget to try to provide 
additional funds for that.
    Mr. Peck. And, finally, if I might, on contract job 
reporting, we are by the White House Recovery Act Office 
required to have our contractors tell us how many jobs they are 
creating. As I said before, the rules under which they do that 
are really stringent and very conservative. And, really, they 
have to have actually been paid for a job by us before they can 
report it. So when they hire people in anticipation of payment, 
they are not reporting those jobs yet. And that may be why you 
are hearing some people saying, "I think I have a job because 
of the stimulus program, the Recovery Act," and we are not 
reporting it yet.
    Mrs. Napolitano. Mr. Chair, I would like to have this 
Committee maybe have a report on some of those figures that the 
administration has but we may not have them at our disposal.
    Mr. Oberstar. We have included in our 30-day reports all of 
the information that comes to us directly, comes to this 
Committee directly from State DOTs and from other participating 
Federal agencies. And if there is any additional information 
that they have, we will, through the course of this hearing, 
request that to be included and distributed to all Members.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    And, Chairman Carper, welcome to the hearing. I didn't get 
a chance to introduce you, which I would have loved to have 
done. You are the former mayor of Macomb, which is in my 
district. And I just want to say for the record, they couldn't 
have picked a better person to do this. And I worked with you 
and I worked with your predecessor on Amtrak and the importance 
of fully funding it. And you are right, it is nice to be able 
to see that, you know, we are starting to actually invest in 
passenger rail. And I am a strong proponent of that.
    I may want to ask the panel for some help on this. I don't 
know if you can do this for me, Mr. Chairman, but we--and I 
appreciate the high-speed rail that was announced for Illinois. 
And the Governor, as you know, of our State put $45 million 
into the Quad Cities, to Chicago passenger rail. And that came 
through an investment, which I think infrastructure is an 
incredibly great investment to put people back to work.
    We are short about $4 million or $5 million on the depot 
end of it, where they want to put the depot at. And I don't 
know who I should talk to, so I guess I am asking you maybe for 
some assistance, or maybe you could have whoever I need to talk 
to talked to. Because this is, by the way, going to put 800 
people to work, and it is ready to go. It will be huge. We are 
going to build a new Western Illinois University campus. Young 
people are going to come from Chicago. As you know, they go to 
Western Illinois now, in Macomb, Illinois. So any help that I 
can, you know, work with the staffs on, I would generally love 
that.
    But let me just say, you know, I think you have done a 
wonderful job here. And putting people back to work is great. 
So I guess that is more of a plea to get some help here.
    But, you know, I just wanted to ask you, Mr. Porcari, you 
said there is $38 billion, you think, in the Senate bill. The 
Chairman came to my district, and we had young people--I think 
you remember, Mr. Chairman--with T-shirts on, on a highway. It 
is US-34. And we all have in our districts terrible, terrible 
highways. But here young people came to lunch to meet with the 
Chairman; they had these shirts. This is a highway that has a 
curve that goes right around the high school. And eventually--
it is going to happen. I mean, it is not a question of if; it 
is going to be when. If we don't get this thing fixed, what we 
are going to have--and I think you know, Chairman Carper, where 
we are talking about here--you know, you are going to have this 
school getting rammed into while these kids are in school.
    What is the process of applying for the funds? What can 
Illinois do? Because I have two that are very, very dangerous. 
And my fear is, if we don't get these things moving quickly, we 
are going to read about something in the paper. And, again, you 
know, I want to be very proactive on this, and I don't exactly 
know how to do it, so any help I can get, again, would be 
great.
    Mr. Porcari. Congressmen, first up, I need to apologize. 
The version of the jobs bill that was passed yesterday has a 
surface transportation extension until the end of this calendar 
year. It does not have, any longer, that additional funding. 
What it does bring us, though, is that consistency and 
predictability. So the existing formula funding for every State 
through the surface transportation bill would be extended 
through the end of this year.
    I need to also caveat that by just reminding the 
Subcommittee that the Highway Trust Fund will need a cash 
infusion sometime this late spring for it to continue to be 
viable. So I think you are speaking to the larger need that is 
out there that we are currently struggling to fund.
    Mr. Hare. Well, I worked hard to get on this Committee, and 
the reason I did was because, as I said earlier, I believe that 
investing in infrastructure, you know, particularly when we are 
in a recession--but we have got--you know, 20 years to go, the 
president of the iron workers said, you know, X number percent 
of bridges were in dire need. And, so far, I think, only a very 
handful of those in 20 years have even been touched.
    And this Chairman has worked tirelessly to try to get a 
multiyear highway bill, reauthorization bill. And I am not 
going to, and I know he won't--but anything we can do. And I 
would hope that you would let the President know that this is 
huge for the American people. Because we cannot piecemeal this, 
I believe. You just simply cannot piecemeal it.
    And when you take a look at the moneys that have been spent 
by the government on some things that people find a little bit 
testy--$750 billion for banks--and yet we are having a very 
tough time funding the Inland Waterway Trust Fund, we are 
having a tough time getting a multiyear highway bill, the kinds 
of money that Chairman Carper would love to have so we could 
expand Amtrak, you know, those are all things that I think, if 
we are going to get this economy moving again, that is how we 
are going to do it. And a little bit here and a little bit 
there I think really doesn't get to where we need to go.
    And Congressman Michaud just was mentioning--I don't know 
if he is still here; no, he left. But, you know, here again, if 
we are going to make these railcars--you know, I have an empty 
factory in Galesburg, Illinois, a former Maytag plant that was 
outsourced to Reynosa, Mexico, due to NAFTA. We would love to 
make them there. So if anybody is interested in a wonderful 
facility in Galesburg, Illinois--aren't you glad I am here 
today?
    But these cars and these kinds of things need to be made 
here. And, you know, we are going to insist, from my end of it. 
I will be livid if we find out that we take taxpayers' money 
and we send it to other countries to manufacture stuff when we 
are sitting here in Illinois, 11.1, and the gentleman from 
Florida talked about the unemployment rate there. So anything 
that we can do to do that.
    But just to give you one final example. Mr. Chairman, on 
this Chicago thing, to repeat it, 800 jobs are going to be 
created. And I just have to conclude by saying--everybody has 
gone over their time limit--I must be living in a different 
time warp here. Because I hear people talking about how the 
stimulus hasn't put anybody to work or saved a job or done 
anything. And for those people who are doing it, either I am on 
the wrong planet or I don't know where they are getting their 
figures from. Because, quite frankly, we are seeing a number of 
things that--and a number of good things.
    And if the Chairman has his way, and I hope he will, with 
the surface transportation bill, we can get this country back 
moving together and we can actually start repairing bridges. My 
fear is, I don't want to see a repeat of what happened in 
Minneapolis. But sometimes, you know, people say to me, "Well, 
that is the way Congress reacts. It has to be horrible before 
anything gets done." So, whatever you can encourage the 
administration to do. And I would be happy to--I am sorry I 
went over and I went on a rant here a little bit--but, you 
know, whatever you could do to get the message and to move 
this. I will work with anybody here.
    Mr. Porcari. Congressman, those are some great points. If I 
can just address one, because I know we are out of time.
    On high-speed rail, the American manufacturing component of 
it is critical to us. Secretary LaHood called together the 
existing and potential manufacturers basically to tell them 
that the Buy American Act is the floor, not the ceiling, that 
we expect more of them in this.
    And we have, coming out of that, we have commitments from 
30 manufacturers, all different parts of the supply chain, that 
they are either going to locate or expand in America if they 
get business as a part of high-speed rail.
    It is that kind of bully pulpit and raising the 
expectations that I think we can do up front and that we are 
very, very focused on.
    Mr. Carper. Mr. Chairman, I know we are late, but I would 
like to respond to Congressman Hare.
    And thank you for the kind words.
    The project that you are speaking of, Congressman, is an 
example of what we are seeing around the country in certain 
areas--and I am sorry that the congressman from Maine is not 
here--is the development that is coming in around stations, 
whether it be in Illinois or Maine or California or Florida or 
wherever. I mean, transit-oriented development is a given, and 
it is starting to happen with passenger rail.
    The example here, however, is development that is waiting 
for two major projects to happen. One is a university 
expansion, and the other is the expansion of passenger rail. 
And those jobs may not get equated as we are reporting them 
there, but it is happening around the country, and we fully 
support it.
    We have been working very hard with the folks in the Quad 
Cities and on into Iowa, I might add. And we will follow up 
with your staff on the depot situation and any projects that 
might be available.
    Mr. Hare. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. Hare.
    Now, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    And I thank all of our witnesses today for your patience.
    I have just a couple of areas of inquiry, because I agree 
with Mr. Hare and with so many of us here on this Committee. 
Infrastructure--we have long-term, major infrastructure needs 
in this country: water and sewer, transportation. There is not 
a dime that would be spent on infrastructure that wouldn't pay 
off in jobs right now and in true economic growth for the 
future. So it seems like a no-brainer. I don't know why we are 
even wrestling with what we need to do here, but we are.
    But I do have some concerns. I am looking at the Buy 
American provisions. And, particularly, Mr. Hooks, I wonder if 
you could respond. I know that the EPA has issued 25 regional 
waivers. There was a nationwide waiver that was announced for 
June and then updated in August. And I wonder if you can tell 
me what that means in terms of dollars gone and jobs for the 
waivers that have been issued. Because I am really concerned 
that we have some gaps in Buy American that we really do need 
to close.
    And then I wonder if any of you have any comments, 
particularly Mr. Peck, about how we could actually strengthen 
Buy American with respect to services. I look at things like 
high-speed rail, for example, where some of the design services 
and stuff could easily be taken offshore because that is, kind 
of, where a lot of the work is. And so I don't want to, you 
know, make these major investments and then, both on the 
service and the goods end, see American taxpayer dollars that 
aren't used to buy American and build American.
    So I want comments on that.
    Mr. Hooks. Let me respond to the Buy American question that 
you asked. We actually have issued 43 project-specific waivers 
at this point in time and four national waivers, a de minimus 
waiver for minor components of various pieces of equipment that 
is necessary to be purchased. In my opinion, I think that is 
actually a fairly small number, 43 projects out of 
approximately about 3,200. I don't----
    Ms. Edwards. What does that mean in terms of dollar amounts 
and jobs?
    Mr. Hooks. In terms of dollar amounts and jobs, I don't 
have an algorithm that would give me that specific figure. We 
would have to do a little bit more prep, a little bit more 
research. And we could supply that for you at a later point in 
time.
    I can assure you that, at least in the conversations that 
we have been having, at least, with the recipients and with our 
States, our primary objective has been to purchase our products 
here in America. But, in some instances, due to historical 
purchases of equipment for entities that wanted to replace 
equipment that have previously purchased foreign-manufactured 
goods, in those instances we have granted a few waivers for 
replacement parts and things of that nature.
    With every request, they are specifically investigated to 
ensure there are no American manufacturers that could produce 
the same piece of equipment. In the event that we do have a 
manufacturer that does come forward, we actually make that 
information known across the country in the event that there is 
another entity or another waste management district, if you 
will, that also wanted to purchase a similar piece of 
equipment, to make sure that they are aware of what their 
potential capabilities are of these American companies.
    Ms. Edwards. Mr. Peck?
    Mr. Peck. Well, I can say, on the building side of GSA, the 
major services that we try to acquire--building maintenance 
services, cleaning services, even architectural engineering 
services--there are an abundance, fortunately, of American 
suppliers and contractors to do it. And so I have to say, in 
our Recovery Act work, I am unaware of any instance in which we 
have had to go somewhere else. And there are opportunities, 
but, for one reason or another--there are certainly great 
architects in other countries, but we have great architects 
here, and that is who we have been hiring to do the work.
    As I said before, my concern and something that I think the 
Recovery Act funding will allow us to overcome is that there 
are some aspects of sustainable design and development in 
which, right now, you have to use foreign components. And 
there, too, as I said, we are having active conversations with 
American suppliers in talking about how can we order enough 
from them to get them to on-shore their production.
    Ms. Edwards. Well, part of the challenge is we want them to 
know that it is a long-term investment. I mean, there is no 
incentive for them to bring work back on shore or bring it on 
shore if they don't know that we have a long-term commitment.
    Before my time runs out, I do--well, it has probably 
already run out, but, Mr. Chairman, if you would indulge me for 
just a moment?
    Mr. Oberstar. Your time has not run out.
    Ms. Edwards. Thank you.
    I want to get to a question about the disadvantaged 
business participation. Because I have had this inquiry, and I 
know others on the Committee have, as well. And I know that we 
have a 10 percent aspirational goal. But what I don't see is, 
sort of, State by State, what are States really doing? How do 
you keep track of that, Deputy Secretary Porcari?
    And it concerns me that we also, with Mr. Cummings's and 
the Chairman's help, allocated additional bonding authority, 
but only five applications, $50,000 out of $20 million--what 
are we doing to make sure that people even know that that 
authority is available so that disadvantaged businesses can 
take advantage of the bonding authority?
    And then, again, how are we really meeting that 10 percent 
aspirational goals? Because those are huge complaints that have 
come out of my district and within our State.
    Mr. Porcari. I think those are excellent questions, and we 
have heard some of the same questions.
    One of the advantages of using the existing mechanisms and 
relationships and policies with the States in the Recovery Act 
is that the States and grant recipients know what they have to 
do, including with disadvantaged business enterprises. And they 
should have in place established programs to promote and get to 
that goal and beyond.
    It is clear that we have a lot of work to do on this. It is 
clear that some States have done a better job than others. It 
is, I will tell you, particularly frustrating that the bonding 
assistance program--which we are very appreciative of because 
it tackled one of the very specific barriers to entry that 
minority and disadvantaged businesses have, which is securing 
bonding so you can bid on a job--we are very frustrated that it 
hasn't been used more than it has so far.
    We have been working with the Small Business 
Administration. We have a partnership with one of the largest 
minority-owned banks in the country to promote this. Brandon 
Neal, who directs our Office of Small and Disadvantaged 
Businesses, has literally been around the country promoting 
this and pushing our partners to do better at this.
    Ms. Edwards. I have to tell you, I mean, I was with a group 
of businesses just a few weeks ago. They had no idea it even 
existed. So I don't know what it is that, you know, the 
Department is doing additionally to reach out and to encourage 
States to do the same.
    And I would like--I don't know if it is possible, but we 
really do actually need a report, a specific report on minority 
business, disadvantaged business participation and where States 
are in terms of meeting those aspirational goals, by 
categories. I want to know how many women-owned businesses, how 
many African-American-owned businesses, how many Latino-owned 
businesses are really contributing to getting to that 10 
percent, which really should be a floor and not a ceiling.
    Mr. Porcari. If I may suggest, maybe a place to start is we 
could sit down with you and make sure we are getting the 
information together that you would like on this. This is, 
again, something that we have not been as successful at as we 
would like to have been. We are looking for ways to improve the 
process and would appreciate suggestions and input. We have 
talked to a number of minority contracting associations and 
professional groups and others as part of this, but it is clear 
we need to do more.
    Ms. Edwards. Look forward to working with you.
    Thank you, Mr. Chairman.
    Mr. Oberstar. On that point, I just want to underscore 
that, early in this process last year, I convened a meeting of 
the building trades, the presidents of all the building trade's 
unions, and the Tri-Caucus. And the Members of the Asia Pacific 
Islanders, the Hispanic caucus, the black caucus participated 
in this. I mean, we had a very frank exchange with the 
presidents of the trades about outreach, about inclusiveness, 
about bringing minority trainees into the program. The building 
trades, going back to the Middle Ages, were guilds, where the 
skill was handed down from father to son, from generation to 
generation. We need to break that chain and change things.
    And I designated Mrs. Napolitano to coordinate for the Tri-
Caucus for follow-ups to those meetings. The presidents of the 
building trades all committed to initiate new programs, to 
recruit from the minority communities and bring people into 
their journeymen and apprenticeship programs. And the same 
needs to be done with the minority contracting community.
    And your point was well-taken about the need to outreach 
and notify companies of the existence of the bonding 
provisions. In Minneapolis, just last week--Mr. Ellison 
represents Minneapolis. And I met with minority contractors in 
Minneapolis. A good many were aware of the bonding, but they 
also didn't have a way of accessing the funding. They didn't 
quite know how to go about it. There were also concerns that 
the outreach was very successful for women-owned contracting 
firms but not black-owned or Hispanic-owned contracting firms.
    So I have discussed with Mrs. Napolitano about a follow-up 
meeting that we would have with the Department, with the 
associated general contractors, with the building trades. And 
we will set up a time to convene and have a roundtable 
discussion about these issues and have a full agenda, which we 
will develop with you.
    And, Ms. Brown, did you----
    Ms. Brown of Florida. Yes, sir.
    Mr. Oberstar. I yield to the gentlewoman.
    Ms. Brown of Florida. Thank you. Because I want to add to 
that. There is a major discussion in the black caucus. And you 
know I had invited you to come and speak with the caucus on 
this issue, because there is a lot of concern that--let's say 
that all of what we are discussing, all of the stimulus is 
like--I look at it like my grandmomma's sweet potato pie. And 
we all contributed when we voted for the stimulus. In fact, it 
was all Democratic votes, not one Republican. But it is 
important that minorities and females get a slice of what I 
call my grandmomma's sweet potato pie.
    And when we had the Secretary in Florida, we wanted to 
know--and so it is broader than just two or three people--we 
want to know how those programs are working and whether or 
not--because part of the problem, you have these big contracts. 
If you don't break them down, then minorities or females cannot 
participate because they can't--not just bond, but, you know, 
it is just the big guys get all of the dollars. And that is 
part of the problem.
    And that has been a part of the problem. And, basically, it 
is throughout the Federal Government. It is not just with 
transportation, even though we have had some successes, 
minimum. But, all through government, part of the problem is 
that minorities and females don't get an opportunity to 
participate because of the size of some of these projects, 
general service in particular. I mean, that is one of the real 
good award systems. In other words, people have been doing 
business with general service for years, and so it is hard to 
break in.
    And so the question is, what can we do to let people know? 
And part of it is the workshops that you all have, some of that 
outreach, going into the community and letting them know that 
these opportunities are available and how you apply. I have had 
several of those workshops, and I would encourage other Members 
to do the same thing.
    Mr. Oberstar. We are going to follow up on them. We are 
going to have lessons learned in this arena, as well----
    Ms. Brown of Florida. As practices, I guess is what we 
should call it.
    Mr. Oberstar. --and establish new practices----
    Ms. Brown of Florida. New practices, yes.
    Mr. Oberstar. --as we go into the authorization for the 6-
year surface transportation bill.
    Mr. Porcari, there has been much misrepresentation or 
misinformation about the pace of implementation of the stimulus 
program. And a good deal of it on talk radio and television 
reporting and newspaper and print reporting comes under the 
rubric, I would say, of misunderstanding of terms and then, in 
fact, misinformation to the general public. So let's have a 
discussion now about the terms "allocate," "obligate," 
"outlay." These are budgetary terms.
    Now, I said and I posited at the outset of this hearing 
that the jobs precede the reporting; the jobs are on the site. 
Contractors have ordered their materials with which to do the 
project. They have brought their workers back or hired new, put 
them on the job site. They perform work. Then the contractor 
bills the State on a highway project or an aviation project 
bills the airport authority, and then the State pays and then 
vouchers the Federal Government. So the jobs are out there long 
before the outlay takes place.
    But I want you to explain for public understanding 
"allocate," "obligate," "outlay."
    Mr. Porcari. Thank you, Mr. Chairman, because this is 
probably the single biggest misconception in the whole Recovery 
Act. And what we should all care about is exactly what you 
said, which is when the materials are ordered, when the jobs 
are created, when the layoffs are averted. And "obligation" and 
"outlay," in particular, have been a source of confusion.
    Obligation for transportation projects is when those things 
happen. That is when the materials are ordered and the work 
happens. Because we work on a reimbursable basis, of those 
three terms, the one we should care about the least is actually 
"outlay," because that is the end of the process.
    Again, I have seen this from both sides, starting the 
Recovery Act, delivering projects in a State DOT, and I can 
tell you what "obligation" actually means. It means you can 
talk to the State contractors associations and tell them, 
"These are the bid packages. These are when they are going to 
be on the street." In fact, we put them on the street 
conditionally on the act being passed, so that the moment the 
bill is signed, you can actually award projects. That is when 
people are hired.
    The reimbursable process, what it does is protect our 
Federal taxpayers. I used the analogy before, if you are buying 
a car, you don't pay the manufacturer to build it. They build 
the car; they employ the people to build the car. You buy the 
finished product after you have test-driven it. That is how our 
projects work. After it is completed, for our smaller and 
midsized projects, we reimburse the States the same day or 
within 24 hours.
    For the larger projects that are much more expensive and 
higher expense, we do that on a milestone basis. So think about 
having a house built. You don't hand--if you are smart, at 
least, you don't hand the builder a check up front for the 
entire cost of the house. You make progress payments based on 
the work that is actually done. And that is how our 
transportation projects work.
    So the color of the money, as it were, who is putting the 
money up front shouldn't matter. Because the States, the 
transit authorities, in some cases, are actually fronting the 
money, getting the work under way, employing the people. When 
it is built right, when we have a project we can be proud of, 
when we have that investment, the Federal Government, with the 
Recovery dollars, is reimbursing.
    So the outlay, which is the actual Federal expenditure, is 
the least important of those three terms. The obligation, which 
is when we are saying, "Yep, that is a good project, you have 
met the Buy American Act, you have all your permits in hand, 
you are truly shovel-ready," that is when the clock starts and 
when people are employed, the materials are ordered, and the 
economic stimulus is actually there.
    Ms. Brown of Florida. Mr. Chairman, on that point----
    Mr. Oberstar. I yield to the gentlelady.
    Ms. Brown of Florida. There was a question asked earlier 
about how many inspectors. You use the inspectors to go and 
verify whether or not the project has been completed, specified 
according to what we are buying; is that correct?
    Mr. Porcari. That is correct. The projects are inspected.
    Ms. Brown of Florida. Okay. Because the question was, how 
many of these jobs was inspectors? You need the inspectors to 
certify that the work has been done.
    Mr. Porcari. We absolutely do. The shortest duration 
transportation projects you have out there--think about a 
resurfacing project. Even those are 15 years' life. You know, 
our bridge projects might be 60 or 70 years. You want to make 
sure you get the product you pay for. That is why we have a 
reimbursable process. So we are not using our Federal taxpayer 
dollars until we have a product that we are all proud of. And 
you need inspectors, obviously, to make sure we get our money's 
worth.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    Mr. Hooks. Mr. Chairman, if I could?
    Mr. Oberstar. Mr. Hooks?
    Mr. Hooks. That question about inspectors was asked of me, 
actually, earlier. We actually do have inspectors. We just 
weren't putting them--we weren't using stimulus dollars to 
actually hire inspectors. Our region heads are actually 
visiting each State twice a year, plus some of our headquarters 
personnel are also visiting each State, to ensure that the 
moneys that have been appropriated for stimulus act projects 
are being, in fact, spent on stimulus projects as they were 
intended.
    Mr. Oberstar. So the point is that we have $32.2 billion 
obligated in highway and transit, 94 percent of the $34 billion 
that was approved. That translates to 12,414 projects approved. 
We have 12,252 projects out to bid. That is $26.4 billion, or 
77 percent, through the end of December. That number is higher 
now because we are into February.
    So the point is that those who just didn't agree with the 
stimulus can use any number they want, but they are not 
entitled to their own numbers. These are real numbers. The 
obligation--first, the DOT allocated to each State, told the 
State, "This is your formula allocation." Now you are approved 
to proceed to obligate the funds--that is, to commit projects 
to these dollars.
    And then the next stage is to advertise for bids, for 
project-specific bids, correct?
    Mr. Porcari. Correct.
    Mr. Oberstar. And the bids come in, and then the bids are 
evaluated and awarded. And when the award is made, then the 
work can start.
    And I think we have an extraordinary track record, very 
successful track record, on the surface transportation program 
and transit and aviation. The FAA moved out and airport 
authorities committed over 400 projects in a very short period 
of time.
    Now, they have a different contracting authority than 
highway departments. They can take bids and hold the bid and 
hold the contractor to that for up to a year, many authorities 
have told me. It may be different with certain ones, but most 
of them can do that. Is that correct?
    Mr. Porcari. That is correct. And I will tell you, 
contractors were so desperate for work that many of them held 
their bids even longer than they were required to. And that is 
an illustration of the good value we have gotten. I previously 
mentioned we thought that the Federal Aviation Administration 
would be able to do 300 airport improvement projects. The bids 
came in so aggressive and so low, we did 360.
    And working within the statutory process that the States 
had, they teed themselves up well, and some States were 
extremely aggressive about, for example, putting projects out 
to bid even before the stimulus bill was signed, subject to 
Federal appropriation. So that it was essentially a conditional 
award, so that those projects would start that much sooner.
    The reimbursement process has served us well in protecting 
our Federal taxpayer dollars. It has not been an impediment to 
getting the work done and the people hired, which, after all, 
is the goal here.
    Mr. Oberstar. Well, I can say from personal experience that 
the aviation side worked so well that an airport authority just 
outside my district, although their territory--the lake water 
goes up to the shore. The lake is in my district, but the town 
isn't, but they think they are. And they invited me to a ground 
breaking. By the time I got there, it was a ribbon cutting. The 
project was completed. It was a taxiway improvement. That is 
success. That is putting people to work.
    Mr. Porcari. That is truly success. And there are countless 
stories like that throughout America. There were projects under 
way within 24 hours--under construction within 24 hours of the 
President signing the bill. I know that because we had the 
first one in the country.
    Mr. Oberstar. Maryland, Silver Spring, 24 hours after 
signing. I know. I carried my report card around with me. You 
can't read it from out there, but I have it in my vest pocket 
everywhere I go. This is my monthly updated report card on 
stimulus projects under the jurisdiction of this Committee.
    Now, Mr. Porcari, among the criticisms are those who can't 
find anything else to do, say, "Oh, well, these are just short-
term projects." It isn't DOT that made the selections. It 
wasn't the Federal Highway Administration that made the 
selections. It is the State DOTs.
    And for years--and I have served here, this is my 36th 
year, and before that I was staff director of this Committee. I 
was an administrative assistant for my predecessor, who was 
also Chairman of this Committee. I have heard State after State 
say, "We have all this portfolio of repair projects. 'State of 
good repair,' it is an engineering term. If we only had the 
money, we would do these." Well, now they have the money, and 
they have been doing them. You can't have it both ways. You 
can't complain that these are short-term projects and then say, 
"But our roads need fixing." You have to do both at the same 
time.
    And, "Oh, we should have had longer-term projects," now 
because the program has been such an undeniable success, with 
980,000 jobs nationwide. And I cited the numbers earlier of the 
unemployment compensation checks avoided, the taxes being paid 
by those at work, and the payrolls for those who are on the 
job. So now the critics find something else to carp about. 
"Well, they should have been longer-term projects." Well, we 
will have plenty of time to do that in the 6-year authorization 
bill.
    Mr. Porcari. It is very true. But we have long-term 
projects also in the Recovery Act. You know, I likened this to, 
kind of, a three-stage rocket where the first projects out the 
door were things like resurfacing that can be done very 
quickly. Those have a 15-year life.
    The next series of projects--and one illustration would be 
the Caldecott Tunnel project in the San Francisco Bay area, 
which is now under way as part of the, kind of, second wave or 
the second stage. That is an improvement that will be there 50 
years from now, easily.
    Mr. Oberstar. And the interdispersal loop in Tulsa. I went 
to Ms. Fallin's district. I went to Tulsa, I went to Oklahoma 
City. Secretary of Transportation Gary Ridley for Oklahoma said 
this is a $76 million project. It is a 66-or-so-mile loop 
around the city of Tulsa. It has needed major repairs for 
years. They haven't had the money to do it.
    The project entails 44 bridge redeckings and huge work on 
resurfacing the existing roadway and creating shoulder space 
for safety purposes. We went out on the job site, and I asked, 
"How long did it take to design this?" He said, "We had planned 
18 months, design and engineering. But after your hearing in 
October of 2008," in this Committee room, he said, "I went back 
to my staff and said, 'That Committee is serious. We are going 
to have a stimulus program. We better get ready.'" And in 4 
months they did the design and engineering for an 18-month 
design plan. And he said, "I told my engineers, 'You take your 
design work to church with you on Sunday, because if I need to 
talk to you, I will.'" And they did and he did.
    And so they have people on the job site. There were 
contractors out there telling me, "See that equipment? It was 
in mothballs 2 months ago." Now they are working. I went up to 
contractors. They are doing a continuous pour jersey barrier on 
one of the bridge segments, 44 bridges. And they said, "We are 
so glad to be working. We are so delighted to have our job." It 
is working.
    So you will get back to us. And we will call you for 
meeting with the Tri-Caucus and to discuss.
    Mr. Hooks, lessons learned. EPA was off to a slow start--we 
noted that in hearings a year ago--because you had some 
internal difficulties interpreting the Buy American. Are those 
issues now fully resolved?
    Mr. Hooks. Yes, sir, I believe so. We----
    Mr. Oberstar. What are the lessons learned for the future? 
What advice do you give for your brother or sister agencies 
here and for us as we move forward?
    Mr. Hooks. I think one of the things that we have learned 
throughout this process is a closer working relationship with 
our stakeholders, quite honestly. When faced with these new 
provisions, whether they were Buy American or Davis-Bacon, we 
actually sat down with our contractors, we sat down with the 
stakeholders. And we conducted numerous Webinars, visited the 
States, said these are new provisions to this particular group 
of entities that are actually building wastewater management 
treatment facilities. How are we going to work our way through 
this? It was a mass education program.
    And I think, in terms of the lessons learned, we developed 
a much closer working relationship as a result. I think we were 
able to work through many of the difficult issues that troubled 
us, that troubled the community. I think we were expecting a 
lot more Buy American waivers, in all honesty. To date, we have 
had just a handful. Work is proceeding. People are going to 
work. And we are purchasing our products, by and large, from 
American manufacturers.
    Mr. Oberstar. I think the State agencies learned a great 
deal and learned to be more nimble and respond more quickly. 
Understandably the State Revolving Loan Fund for 12 years in 
the previous management of the Congress was not authorized.
    Mr. Hooks. I think one other thing the State does well is 
that typically it took 2 years from times of appropriation to 
times when they had to actually have this work under contract. 
They actually did it in 1 year. So we all learned how to 
expedite the process. Even internal to EPA, we have learned 
some things on how to achieve some administrative efficiencies 
that we will incorporate not only to finish out administering 
the Recovery Act funds, but we will put in as a permanent 
fixture in terms of the way we do business at the Agency.
    Mr. Oberstar. I looked at the list for the State of 
Minnesota, the State Public Facilities Authority, managed by 
Jeff Freeman and Terry Kuhlman, been doing it for 25 years, 
they are career professionals. They have ranked every project, 
1 through 263, in the wastewater treatment arena and small 
communities, 1,500 or 500 population. And they have been 
waiting for years. Their mound systems are failing, their 
septic systems are failing, or they had 100-year-old sewers 
that are grown through with tree roots, and now they are 
getting the funds for the projects. They were able to leverage 
the loan money and grant money together to take a $73 million 
program and make a $502 million program out of it.
    Mr. Hooks. I think the additional 50 percent of 
subsidization that we provided provided these communities an 
opportunity, heretofore that had not had an opportunity, to 
participate in this program, are engaged, as you said.
    Mr. Oberstar. So you have done combined sewer overflow; you 
said 6 percent of the projects are CSO. Do you have one or two 
examples of those?
    Mr. Hooks. At my ready? No, unfortunately I don't.
    Mr. Oberstar. Provide that for the record.
    Mr. Hooks. I will do that.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Oberstar. And for improving rehab or existing 
wastewater collection systems. In my hometown, Chisolm, 
Minnesota, their wastewater treatment system is a little old. I 
worked on it when I was in college pushing a ready-mix 
wheelbarrow up a ramp to pour it into the forms for the 
retaining facility. It is like my hip, osteoarthritis. I had it 
taken out and have a new one. The same thing with that system. 
It has got osteoarthritis; it needs to be replaced. There are 
lots of those all over the country.
    Mr. Hooks. There are.
    Mr. Oberstar. And this Recovery Act, the stimulus program, 
gives us the opportunity to do that rehab, rehabilitating and 
expanding of existing inadequate capacity.
    You have some examples of non-point source projects. I call 
that the new or the next frontier of the clean water program.
    Mr. Hooks. One of the requirements of the Recovery Act, the 
goal was to have 20 percent of the wastewater monies spent on 
what they refer to as green project reserve. These are projects 
that basically capture water on site.
    Just a few months ago I had an opportunity to participate 
in a ground-breaking ceremony not too far from here, in 
Edmonston, Maryland, right next to Hyattsville, where a 
community had received some wastewater monies, and where they 
are instituting bioretention gardens and planting trees, 
capturing water on site. I think the community is also going to 
be instituting rain barrels. So there are a variety of 
practices that are used, historically used, across the country 
that are now being expanded.
    I think we originally thought we might have trouble trying 
to identify 20 percent for this green project reserve. It turns 
out we were oversubscribed; we were probably closer to 29 
percent across the country in terms of these types of projects. 
Green infrastructure, water and energy efficiency are also 
included in that 20 percent as well, but we are highly pleased 
with some of the green infrastructure projects that have been 
developed.
    Mr. Oberstar. Those are very encouraging, and I am glad 
that EPA has encouraged States to move and pushed them to move 
in that direction. It is not entirely your decision to make, 
but you can certainly encourage, and you have done, and Ms. 
Jackson deserves great credit, Administrator Jackson, for her 
leadership in that arena.
    Of course, we need to reauthorize the program. I said 
earlier for 12 years of the previous Majority in Congress, it 
wasn't done. For 8 years the Bush administration never 
submitted a proposal to Congress to reauthorize the program. 
And we have done more in 1 year of stimulus than has been done 
in several years of that program. But we have passed it in the 
110th Congress, we passed it again in the first session of this 
Congress from this Committee and from the House, the 
reauthorization of the State Revolving Loan Fund. And the 
Senate needs to act on it, and I hope you and Ms. Jackson will 
insist on that with the President and the OMB and with the 
Senate leadership, get them going, let them move something over 
there. They haven't passed much.
    You don't have to respond to that. I don't want to get you 
in trouble with the other body.
    Mr. Hooks. Thank you, Mr. Chairman.
    Mr. Oberstar. I will take them on.
    Superfund. How many Superfund sites yet remain to be dealt 
with?
    Mr. Hooks. In the entire inventory?
    Mr. Oberstar. Yes.
    Mr. Hooks. I am not sure. I will have to get that figure 
for you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Oberstar. It is like 400 or 500 or so projects that 
need to be addressed. I compliment EPA for committing the $600 
million we allocated for Superfund. You have undertaken work on 
35 projects. Do you have some examples of success stories 
there?
    Mr. Hooks. We are actually up to 38 projects.
    Mr. Oberstar. Thirty-eight.
    Mr. Hooks. At this point. I think one of the projects I 
actually used in my testimony was in Minnesota, as a matter of 
fact.
    Mr. Oberstar. Yes, I am sorry, you did mention that.
    Mr. Hooks. We were removing arsenic from, I think, 
approximately in 500 homes in the State of Minnesota, reducing 
that threat.
    Mr. Oberstar. All right. That is--in our next hearing, 
which will probably be in another 4 or 5 weeks, we will have an 
update on the progress.
    Mr. Peck, you told us that GSA has awarded twice the amount 
of contract awards in the last 6 months as GSA does in an 
entire year. That is a great achievement. How did you go about 
doing these projects differently than those in the regular 
year-by-year GSA program?
    Mr. Peck. A couple of things. One is we set up a dedicated 
office in the national headquarters to supervise the projects. 
We created and have 11 regions, and they really are our service 
delivery mechanisms. In each of the regions, we created a 
Recovery Act executive, and those people worked as a team 
starting to figure out how they could make things move faster. 
We put in some special tracking systems, and I have to say 
getting the funding to upgrade our information technology on 
tracking things helped.
    And then I have to say there is one other thing that I am 
fond of saying. We discovered some of our iteractive review 
processes internally could be collapsed, and there was a lot 
of--because we have lots of rules we have to go by, contracting 
rules, structural rules, mechanical standards that we follow, 
that a designer designs something, our regions review it, and 
particularly in this case when we were looking at new green 
technology, it would be reviewed by our national office as 
well, and it was starting to be a lot of back and forth.
    In about November we decided that some of the things were 
taking too long, and we instituted a system that I have termed 
"speed dating." We told our regional officers that they could 
come to Washington, and told our national people they had a 
couple of hours in which they were going to work through their 
differences on the reviews and come up with something we could 
put on the street.
    One other lesson learned, since you have asked--two other 
lessons learned, and I would like to know, Ms. Brown talked 
about design build and some other ways we can accelerate 
funding. One of the reasons we haven't done that sometimes in 
the past is because of constraints in funding. We will get the 
money to design a project, and then that project often sits on 
a shelf, and only later, years later sometimes, do you get the 
money to construct it. By the time you get to construction, 
almost inevitably something has happened to make the design 
somewhat obsolete. Either requirements have changed, or, 
better, in some way technology has improved. So you are not 
going to build a building with 5-year-old technology, and you 
go back and redo the design. That is one reason we haven't been 
able to use some of the compressed processes. The fact that we 
got full funding made us move forward.
    One other lesson I think we have is that knowing that you 
have the money to do it means that we take design to a point 
where we can actually get a shovel-ready project. You know, 
when you just get money for design, we go through design 
development, which is about 35 percent of design. It is not 
enough to put a bid document out on the street that a 
contractor can respond to. You would have to be crazy, if you 
could only get the money to design, to go all the way to a bid 
package not knowing when, if ever, you are ever going to put 
that product on the street.
    So in this instance--and I think this is a lesson for us 
for the future--in this instance in many cases we were able to 
do all the design at once. But in other cases we had to take 
old designs off the shelf, and then one of the lag periods, 
which we have discovered is we had to update the designs and 
get them from 35 percent to 65 percent.
    One of the things that I think we know in the economy is 
there are--at least in the real estate industry there are ups 
and downs. And to the extent that we could have a group of 
projects ready to go when the economy turns down so that we can 
get the advantage of the softer construction markets, we would 
all be better off. I can't say we could put off if a roof 
fails; we would have to fix it no matter when it happens. But 
some of the projects, for example, replacing windows in a 
building, that could happen this year, or it could happen in 
some cases 5 years from now. We could hold off and get the 
advantage of a better bid.
    So there is a lesson for the government as a whole about 
having some capital requirements held off for a point in which 
we can get better bids. We will get a better price, and we will 
be able to stimulate the industry.
    Mr. Oberstar. Those are good lessons learned and good 
practices. Maybe we can incorporate some of that in future GSA 
legislation.
    Did you have any bid challenges? Typically GSA has a 
plethora of challenges when bids are awarded.
    Mr. Peck. We have had some protests, as they are called. We 
had one that I have to say--we had two that I could cite in 
which we had protests where we were able to sit down with 
contractors and get the protest withdrawn. I think that is also 
a reflection of the climate. There is a real reason for people 
to say, I have to let this work go forward in my community.
    Another thing to remember is contractors have a lot of 
subcontractors who are anxious to get to work. General 
contractor that gives us a protest right now isn't going to be 
very popular with a lot of the subcontractors.
    Mr. Oberstar. I think that is generally true. I think there 
are very, very few challenges in the Federal highway program, 
none that I am aware of.
    You reference the Bean Federal Center, Indianapolis, where 
you plan to install 4,500 solar panels. Are those similar to 
the ones that were installed on the Department of Energy roof?
    Mr. Peck. I am not familiar with those.
    Mr. Oberstar. They are a very new technology.
    Mr. Peck. Right. There is a new way----
    Mr. Oberstar. I have a sample of it in my office.
    Mr. Peck. Yes, sir. The Bob Dole Courthouse in Kansas City, 
Kansas just got photovoltaic membranes really that you lay down 
flat on a roof service. The photovoltaic technology is really 
moving ahead, and that is another way in which we think that we 
can help make the market in the industry. You can now put them 
flat on a roof in appropriate places, and you can also start to 
put photovoltaic panels on facades that get a lot of sun, on 
vertical facades. And there are places where you don't actually 
need transparency in the glass, or you can put them on a hard 
surface. We can actually get some energy generation that way.
    At the Bean Center, we have a photovoltaic lab there, so we 
are going to measure the results against what we are expecting. 
And one of the things we are saying is we want to be able to 
tell the American building industry, which needs to go green 
outside the government, too, how well these things are working, 
what is the best climate in which to install certain kinds of 
systems, and which of the different technologies are giving us 
the biggest energy reduction, bang for the buck.
    Mr. Oberstar. Well, I think this is a very important 
initiative. Not only did our Speaker insist on green provisions 
in each of the Committee contributions to stimulus, but I 
started it in this Committee in 1977.
    We had a hearing in which we took testimony I happened to 
Chair. I wasn't Chair of the Subcommittee, but the Subcommittee 
of Public Buildings and Grounds, and Teno Roncalio was the 
Chair. He had to be out of town that day, and so I was the only 
one left. First-term Members don't get the Chair, at least in 
those days. And the sheet metal workers union and GSA had 
combined to do a study, a two-volume study, of converting 
Federal civilian office space to photovoltaics. The cost of 
energy generated by photovoltaics in 1977 was 1.75 a 
kilowatthour compared to 7 cents from the investor-owned 
utilities. They estimated that with a multiyear investment of 
$175 million a year for 3 years, you would generate enough 
production in the private sector to reduce the cost down to 
something approaching 10 or 12 cents or lower and further over 
a period of years. The government would be the consumer; the 
private sector the producer.
    I thought it was a terrific idea, so I took their proposal, 
drafted a bill, introduced it. Senator Humphrey did the same 
thing over in the Senate. We got it passed. Jimmy Carter signed 
it into law, put the $175 million for the first year in his 
subsequent budget and then lost the election. President Reagan 
abolished the whole alternative energy program; $960 million, 
poof, just went out the window.
    Mr. Peck. Mr. Chairman, around that time----
    Mr. Oberstar. Thirty years later I assumed the chairmanship 
of this Committee. So I am Chairman now; we are going to do 
this thing. We did it again. I dredged out my old bill. My 
testimony before the Committee was still in the Committee 
files, including my own typewritten testimony and my own red-
line underline, and we passed the bill, and we did it with the 
Department of Energy building, and now we put it into the 
stimulus. And now, by damn, it has to happen all across 
America. We have got to do this.
    Mr. Peck. Mr. Chairman, I would also say that around that 
time we put the first green roof on a building. Thirty-some 
years ago we were moving in a great direction, and it stopped. 
We are relearning those lessons, and we have--we are going to 
be able to report to you we have photovoltaics in amazing 
numbers all over the country. But there are other technologies, 
too, which America in some cases is behind other countries, and 
in some places we are doing pretty well. We have geothermal, 
chilled beams; there are all kinds of things you can do.
    Mr. Oberstar. This is another arena where the United States 
did the basic research, developed the technology, provided the 
resources and then didn't invest. Other countries take our 
ideas, invest in them, and we end up buying solar panels from 
abroad.
    Mr. Peck. I know.
    Mr. Oberstar. That is not right. We need to do this at 
home, and the stimulus has given us an opportunity.
    Has GSA completed the survey of photovoltaic panel-ready 
facilities?
    Mr. Peck. In the----
    Mr. Oberstar. This is in the bill we passed 2 years ago.
    Mr. Peck. Yes, sir. We have--I forget the number. I will 
provide it for the record. But of our limited-scope projects of 
which there are 100 and some, a large number are the 
photovoltaics.
    Mr. Oberstar. I want to see that survey completed and have 
that material submitted to the Committee.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Oberstar. And final question for you, what is the 
status of the Public Buildings Fund?
    Mr. Peck. Well, there is a short-term and long-term answer. 
The short-term answer is in this year we are--the fund, as you 
know, will collect about $8.3 billion in revenue; $5 billion we 
immediately turn around and give to private-sector landlords 
from whom we lease space. About 52 percent of our inventory is 
in leased space. The fund still does produce a net income, but 
as you know, it is that net income only that we use to do 
capital upgrades on our buildings. And the short answer in the 
long term is that we are not producing enough net income in the 
Federal Building Fund to meet the capital expenditure, the 
capital improvement needs that that we have in our owned 
inventory.
    Mr. Oberstar. That is a subject we will deal with in 
another hearing.
    Mr. Porcari, I understand you have a 1:30 commitment. You 
may be excused.
    Mr. Porcari. Thank you, sir.
    Mr. Oberstar. Not the rest.
    Ms. Darcy. The Corps also got off to a late start, but you 
are catching up, and before you get to those, just one 
question. What is--this is not a stimulus project, but the 
second lock at Sault Ste. Marie was authorized in the 2007 
Water Resources Development Act, vetoed. Congress overrode the 
veto, enormous bipartisan support, urgent need for the second 
lock at the Sault. Work has started. What is the status of that 
work? Because it was a new start, it was not eligible for 
stimulus funding.
    Ms. Darcy. Correct. The current benefit-to-cost ratio of 
the Sault lock is not in keeping with the 1-to-1 (or 
greater)benefit to cost ratio that we budget for.
    Mr. Oberstar. Well, that benefit ratio is an old one, I 
know, I have got the documents, and it does not reflect the new 
work that is under way in the iron ore mining country in my 
district with the Mesabi Nuggets that will soon be coming on 
line producing foundry-, and minimill-, and electric art 
furnace-capable product that will be moving through the Sault.
    And SR Steel, which is under construction now, but building 
a steel mill on the Mesabi Range and exporting slabs, the only 
way that project is economically viable is that we can rail the 
slabs to the Duluth Superior port and put them on board ship 
for moving to lower lake steel mills or in some cases for 
export abroad.
    So there is--that benefit-cost ratio is wrong. The project 
needs to move forward, and we will have to have a more 
extensive conversation about that.
    Ms. Darcy. We will, sir.
    Mr. Oberstar. You are undertaking the inspection of 820 
levees across the country. What is the status of that 
inspection work, and what will be the intended benefits to 
safety and to flood protection, to navigation?
    Ms. Darcy. We are conducting inspections with ARRA dollars. 
We are inspecting 820 levees. We hope that the outcome of that, 
will be to allow us to determine which of those levees are in 
the position or are providing the level of safety in which they 
were originally designed, or the level of safety that was 
anticipated by those being protected by the levees. So we hope 
with this money we have accelerated the levee inspection 
program, which was authorized in the Water Resources 
Development Act of 2007.
    Mr. Oberstar. Well, we would like to have periodic reports 
on progress being made and the showing of the geographic 
distribution of those levees so that all the Members can 
understand what work is being done and how it affects their 
districts or States.
    You also said that you have awarded $1.2 billion to small 
business. What determination do you use for small business?
    Ms. Darcy. We use the----
    Mr. Oberstar. The SBA.
    Ms. Darcy. --SBA definition of a small business. We have 
been successful in our small business development. Nearly 74 
percent of our contracts----
    Mr. Oberstar. Give me some examples of small businesses in 
Corps of Engineers work.
    Ms. Darcy. An example would be at a reservoir, for example, 
if we were going to be doing multiple things at a reservoir, 
whether it is a stretch of bank stabilization or some kind of 
upgrade, a small business contractor who does, let us say, 
riprap could possibly qualify as a small business.
    Nearly 20 percent of those small business owners are women-
owned businesses. Between 15 and 20 percent are disadvantaged 
businesses. We have been, I think, pretty lucky. And because of 
the size and scope of some of our projects, our contracts are 
not huge; they are not multimillion-dollar contracts, they are 
smaller, and they go to smaller projects as well. We have some 
what are called our CAP projects, which are our smaller 
restoration projects, which sort of lend themselves really well 
to small businesses.
    Mr. Oberstar. Was it a limitation or was it a benefit for 
the Corps of Engineers that the authorizing language prohibited 
or took off limits on new starts?
    Ms. Darcy. Well, because we have a backlog of projects----
    Mr. Oberstar. A huge backlog.
    Ms. Darcy. Right. In a way I think it was of benefit, 
especially because of all the deferred maintenance we have had 
to address.
    Mr. Oberstar. A huge, huge backlog of things that need to 
be done.
    Mr. Fernandez, I love EDA. I was present at its creation.
    Mr. Fernandez. The EDA loves you, Mr. Chairman,
    Mr. Oberstar. I was present at its creation in 1965. I 
still have my green pen, one of several that Lyndon Johnson 
used to sign the bill into law, and a photo of him handing it 
to me. That is mounted in my office. You are welcome to come 
and inspect.
    I think EDA does a superb job, and you have moved out 
quickly and vigorously to implement the meager funds that were 
leftover scraps from the table, in my view. We had a much more 
robust figure for EDA when the recovery bill left our 
Committee, but by the time it got to the floor, to conference, 
to the Senate, and all other hands in it, it got narrowed down.
    But you have a two-for-one with EDA. You provide the funds 
to do the industrial part, and then you get the business that 
comes in to locate in that facility. So you have the 
construction jobs, and then you have the long-term private-
sector jobs in that facility.
    You have some examples for us of such success stories?
    Mr. Fernandez. Well, you know, in some cases, Mr. Chairman, 
I would say it is even more than a two-for-one. For example, as 
part of the Recovery Act, we funded a number of incubators 
throughout the country, and in those instances not only do you 
have the benefit of the immediate construction jobs, but then 
you have multiple businesses created that grow and create jobs, 
graduate from those facilities, and continue to become an 
engine of growth.
    So I believe in my testimony we referenced 37 million 
investments in business incubation. One specific example I can 
give you is in my home State. For the record, these decisions 
were made before I was confirmed. But in Anderson, Indiana, 
there is the facility called the Flagship Center, which was 
originally funded by EDA, I believe, in 19--I am sorry, in 
2003, and as part of the Recovery Act, we funded an expansion 
of that facility. And that is a good example where in the 
original funding of the project, a company called Bright 
Automotive was started within that incubator. Now that has 
expanded and become a very strong force in helping the 
community recover from the downturn in the auto industry. There 
are a number of projects like that where the multipliers go 
well beyond the short-term job creation.
    Mr. Oberstar. Those are great success stories. I was 
fascinated with the Bright Automotive. I was not aware of that 
company until I saw this reference in an earlier EDA report.
    You also put funding into regional innovation centers and 
trade promotion. You do have an example in Alaska, construction 
of an expansion to an existing dock.
    Mr. Fernandez. Right.
    Mr. Oberstar. How is that going to promote trade?
    Mr. Fernandez. Well, it is going to expand their capacity 
for exports. They have a facility there, but with the 
additional expansion of about an 8-acre site, they will have 
more capacity to move product.
    Mr. Oberstar. And in green jobs you make a reference to a 
LEED-certified facility in New Mexico. Explain a little more 
about what that project will do.
    Mr. Fernandez. Sure, I can do that. The facility there in 
New Mexico that is being built as part of this Recovery Act 
investment is for--they do--that operation does a lot of small 
business microlending and other kind of technical assistance. 
So they will continue to do work in that field as part of the 
ability to do more in this building. They are a headquarters 
facilities for the organization.
    Mr. Oberstar. You have success stories within success 
stories. The funds through EDA went out very quickly because of 
those local development agencies. The EDR, the Economic 
Development Representatives, are out on the ground with 
communities, guiding them, helping them get their projects 
ready. So they had the design and the engineering. They are 
ready to go. They just needed the funding for it.
    And then you have the follow-on success story, the 
facilities, the businesses or enterprises that come into those 
projects. This is an opportunity to tell the good things that 
are happening with the Recovery Act, and I want to complete the 
record to provide us further details on that.
    Mr. Fernandez. Sure. Mr. Chairman, as I noted in my 
testimony earlier, the Committee has a full listing of all of 
our 68 projects with the project descriptions and the benefit 
of the individual projects as well. And I think there is a 
treasure trove of success stories that go on. And because I 
think other panelists had mentioned earlier that the reporting 
on Recovery Act job creation is incredibly conservative, and so 
I think it is fair to say that you will see, then, larger 
benefits from these projects in terms of job creation than what 
is going to be reported.
    For example, in Montana we funded a revolving loan fund 
that is part of the timber industry, and it is a response to 
some of the changes that have been going on, and they developed 
their own cluster to respond to changes in their marketplace. 
Under the reporting requirements we report that one job was 
created. Well, the EDA put in $2.7 million. That was matched by 
the State of Montana. One hundred percent of those--or 93 
percent of those funds have been disbursed to the supplier 
network, et cetera, that are part of that cluster. And I think 
it is fair to assume that more than one, job is accounted for 
as part of those 4 actually,almost $5 million in investments. 
But the way the Recovery Act reporting is constructed, in other 
words, one, job created as part of the administration that 
fund.
    Mr. Oberstar. It is an underreporting, and the reason I am 
probing is there is a story behind the story.
    Mr. Fernandez. Yeah.
    Mr. Oberstar. And other States can learn from that 
experience. I think that is a remarkable--I noted this 
particularly because we have a similar problem in Minnesota, 
the timber and wood products industry. When the housing market 
died, the contractors don't need corrugated strandboard, they 
don't need particleboard, they don't need dimensional lumber. 
They are not building homes. So two companies in my district 
just went out of business altogether, and several in Canada as 
well. Those companies carrying OSB, trucking companies, through 
my district to the South and Southwest, that dried up as well. 
But if you have an idea here of capital for businesses to do 
technical assistance for borrowers, intermediaries as you 
describe it, to develop loan packages or other assistance for 
companies, they are longer-term jobs that are going to result 
from this.
    Mr. Fernandez. Absolutely.
    If I could, Mr. Chairman, so much of the discussion today 
has focused on infrastructure, appropriately. And 
infrastructure that has been described has been, you know, 
focused primarily in transportation, what we might consider 
more traditional infrastructure. But in terms of the Economic 
Development Administration and the work we are trying to do to 
drive innovation and business creation, we like to include in 
our definition of infrastructure certainly incubators, business 
facilities that can help start-up companies, proof-of-concept 
labs where we can accelerate the commercialization research 
coming out of our universities or out of our Federal labs.
    There is an infrastructure that is essential to the 
innovation economy that we certainly play a role in and hope to 
continue to play an even larger role in at the EDA. I include 
in that infrastructure-critical issue that we have to address 
today, and that is access to capital. Particularly when you 
look at the deployment of early-stage funding or seed capital, 
there is a huge lack of availability of funds. When we look at 
how those funds typically get disbursed across the country, 
there is a tremendous magnet that drives a lot of the 
innovation to areas like Boston, Silicon Valley. As I travel 
around the country there are pockets all over America where you 
have tremendous innovation, you have strong entrepreneurs, but 
you have an incredibly difficult time pulling those funders to 
bring that early-stage capital into the heartland or into other 
parts of the country.
    So we think there is an opportunity with the EDA through 
our revolving loan funds and some of our other intermediary 
agencies that we support to help address that critical 
infrastructure need, if you will, to be able to spur the kind 
of sustainable, innovation-based economic development that I 
know we all want.
    Mr. Oberstar. Thank you for that answer and for the work on 
this very important aspect of job creation and sustainability.
    Mr. Rajk--is that how you pronounce it?
    Mr. Rajk. Mr. Chairman, it is Rajk.
    Mr. Oberstar. Mr. Rajk?
    Mr. Rajk. Yes, sir.
    Mr. Oberstar. What is the origin of your name?
    Mr. Rajk. Slovak.
    Mr. Oberstar. Slovak. I am Slovenian. We pronounce it Rajk.
    Mr. Rajk. Yes, sir. The last time I was here, we had a 
conversation about that, sir.
    Mr. Oberstar. I didn't remember that.
    Mr. Rajk. The pronunciation in the United States hasn't 
changed since that time, sir.
    Mr. Oberstar. Well, that is too bad. Bring back the old.
    I tell you, I am not happy with the Coast Guard. I am happy 
with a lot of things the Coast Guard does. They have done a 
remarkable job of responding to Haiti. The Seventh District was 
on the spot. They had two cutters underway immediately and four 
later that day en route to Haiti. They set up the first air 
traffic control support for the airport after the tower was 
decommissioned by the earthquake. The Coast Guard, 
extraordinary work. But the Coast Guard has not broken ground 
on any one of the shore facilities you told us were needed. 
Why?
    Mr. Rajk. Well, sir, indeed we have started the work on a 
number of the projects, both in the Northwest. Coos Bay and 
Neah Bay, the mooring facilities out there have begun to work.
    Mr. Oberstar. Well----
    Mr. Rajk. The other projects, as I indicated in my oral 
statement, sir, some of the projects we were depending on a 
particular contract strategy, which I believe Mr. Peck 
addressed, in terms of protest. There was a protest which we 
had to scrap that strategy and move to individual solicitation 
and awards.
    Mr. Oberstar. So you did undertake a bidding process, and 
there were protests to bid awards. Is that what is holding 
these up?
    Mr. Rajk. Well, in the case of five of the short projects, 
yes, sir, we had intended to use what they call a national 
multiaward construction contract, the longer-term, 
regionalized-type contract activity that would allow us to 
issue task orders with a certain set of contractors 
participating in only those particular contract vehicles. Each 
of those five were protested to the GAO. The GAO in December 
upheld that protest. Fortunately we had already begun to pursue 
separately, in anticipation of the protest being upheld, and we 
have since gone out and now we have solicited for, I think, two 
of the five projects that were originally supposed to have been 
done under that particular venue.
    Mr. Oberstar. Is there something in the contracting 
procedures that the Coast Guard followed that can be changed 
for the future to avoid this type of situation?
    Mr. Rajk. Mr. Chairman, possibly there is. I don't recall 
all the specifics of the nature of the protest itself. Maybe at 
another time we could get back to staff on that, sir.
    Mr. Oberstar. Also, of the $98 million for the acquisition, 
construction and improvements account, $10 million was 
designated for the high-endurance cutter engineering changes. 
Is work under way on that now? We have no--previous to this 
hearing we had no accounting for that work.
    Mr. Rajk. Yes, sir. A number of those contracts for those 
ship-repair installation projects have began. I believe four of 
the seventh contracts have began. Some of the work has not yet 
begun.
    Mr. Oberstar. What is the reason for the delay? What has 
been the problem there?
    Mr. Rajk. An example might be one of them we were replacing 
refrigeration systems on eight of the cutters, and the 
manufacturer, when they came on board to begin the 
installation, they recognized that there had to be some 
additional work prepared on board the vessel, which delayed 
some of the work; had to go back, redescribe, make sure that 
the engineering and technical aspects of the work could be done 
with their unit, which was subsequently overcome, and the work 
was gone on.
    As I indicated in my opening statement, for example, 
Hamilton, which you may have been aware of was one of the 
cutters on scene in Haiti, had that work done on it. But it was 
deferred or delayed until some of those other technical issues 
could be dealt with on board the ship.
    Mr. Oberstar. The stimulus program is people working 
quickly on projects that were needed on, in the case of the 
Coast Guard, shoreside facilities, vessel work that needed to 
be done, and it is surprising that the contracting was not 
properly or carefully thought through. Contractors were not 
engaged appropriately. There are some lessons learned for the 
future?
    Mr. Rajk. Well, I think, sir, as the others have stated, 
there are always lessons to learn in this. I think part of it 
is--I think part of it is one of the lessons I think we learned 
is just in terms of bringing the right people together 
regularly to have the conversation. For example, I meet every 
Monday morning, 8:30, with the entire team, including the 
procurement folks, with the legislative folks, the technical 
folks to talk through these particular issues to stay on top of 
it.
    I think in terms of the procurement process, we have 
learned that maybe to be a little more nimble, a little more 
responsive to the opportunities. Oftentimes, as you are 
probably aware, some of the nature of our--the colors of money, 
as I put it. You know, we are used to using multiyear monies. 
While this was multiyear money, it wasn't as long as some of 
the improvement projects that we normally undertake with the 
multiyear money, for example, the 5-year money. So we have 
learned to be a little more responsive to that, sir.
    Mr. Oberstar. Well, that is instructive and important to 
know. We have passed legislation that changed through the 
House--it hasn't passed the Senate yet--to change the 
contracting procedures for the Coast Guard on those longer-term 
projects, and I think that legislation will deal with the 
problems encountered in the Deepwater program. But I am very 
strongly advocating a follow-on stimulus to the current 
program. And we have passed legislation through the House. I 
hope the Senate acts on it. But to be credible we have to be 
able to show that the government agencies are putting the funds 
to work as intended and creating the jobs as expected. So in 
your weekly review, raise that with your associates.
    Mr. Rajk. I will do that, sir. Thank you.
    Mr. Oberstar. Mr. Carper, you said 45 percent of Amtrak 
contracts awarded to small businesses.
    Mr. Carper. Yes, Mr. Chairman.
    Mr. Oberstar. Who are the small businesses, and what is the 
type of work that they are doing?
    Mr. Carper. Well, I can't get into a great deal of detail, 
but I can give you an example. They start from maybe a $1,000 
contract, a painting contract in the Tampa train station. Many 
of the contacts are in our stations around the country that 
would lend themselves very well to small businesses. I can give 
you much more detail on that, Mr. Chairman, in the future.
    I also think that as our contracts are being let into this 
construction season, there are going to be lots of 
opportunities for small businesses as subcontractors on some of 
our larger contracts.
    Mr. Oberstar. Well, we give you credit for a great deal of 
track work, ties that are being--80,000 contract--concrete ties 
are going to be replacing wooden ties, 16 Amfleet cars, 21 
Superliners, 15 locomotives. I gave you all that credit at the 
outside of that hearing, so what is the status of that work?
    Mr. Carper. Well, the work is ongoing. I think we have 
turned, I believe, 15 cars out, with 20 in the queue, and we 
are very confident that we will have our 80 cars and the 
locomotives out by 2011.
    As I stated in my remarks, this is 10 train sets that we 
can put out on the system. On some of our trains on the 
Northeast Corridor, we are turning people away, so this will be 
very good, it will be put to very good use.
    Mr. Oberstar. Where is that rehabilitation work being done?
    Mr. Carper. It is being done in our facility right up the 
way here in Bear, Delaware, and also Beech Grove, Indiana.
    Mr. Oberstar. Well, the work ahead of Amtrak is enormous. 
You have been underfunded for at least 8 previous years. There 
are 2 years the previous administration when the Congress was 
presented with a bankruptcy budget for Amtrak where they--Bush 
OMB--said, it is our intention to put Amtrak out of business, 
break it up and sell its parts. Congress said, no. By very 
strong majorities and bipartisan votes, we restored Amtrak 
funding, but only, as I said at the time, enough to keep 
Amtrak's nose above water.
    Now we have an Amtrak authorization bill that passed in 
2008. We have the $8 billion in high-speed rail funds the 
President advocated for the stimulus. We have full-year 
authorization at $5-plus billion. I suspect we will sustain 
that for as long as this administration is in office. And now 
you can begin getting your rolling stock in good shape, your 
track in good shape, switches that need replacement, catenaries 
in the Northeast Corridor that need to be replaced--some of 
those are 100 years old--and the restoration of your passenger 
cars as well as locomotives.
    So tell the folks, this is it, this is their moment to 
shine, to show--we said for all these years, just give Amtrak 
the money, and they will be able to rehabilitate the cars, put 
the track in good shape, put the locomotives out, move 
passengers and keep the system on time. Well, this is your 
opportunity to do it.
    Mr. Carper. Well, thank you, Mr. Chairman. We are also on 
track to bring our stations into a state of good repair and to 
adhere to the Americans with Disabilities Act in the next 5 
years.
    As you mentioned, yes, our nose is above the water line, 
and we are coming out. It is an exciting time for Amtrak. I 
think one of the most telling things that I have seen coming 
out, to slip a little bit into the lessons learned and looking 
forward, is putting together a fleet plan that really gives 
some teeth to planning for the future. And if we talk about job 
creation, the establishment of a domestic railcar industry 
would be very difficult to do without some good planning on our 
part. This is aside from anything that might happen with high-
speed rail. This is just our own fleet of existing cars that 
range from the age of 60 years old to 20 years old.
    I think it is a testament--and you have been here and 
watched it over the years and, frankly, decades--that our staff 
has been able to keep these cars operating in revenue service 
for that long. But with good work of good staff, and some of 
whom are sitting behind me, there has been a team put together 
that has responded to the challenges or to the opportunities. 
We see the value of being transparent with Congress and the FRA 
and our great partners in FRA and DOT and our stakeholders; 
reaching out to vendors ahead of time to ensure more minority 
contractors and contracts; and to more closely monitor projects 
and costs so reprogramming can be done in a timely manner. So I 
think--no, I know--you are seeing great changes in Amtrak.
    But from a Board standpoint, one of the things that I have 
seen in my short tenure here, 2 years, is the importance of 
stability and quality personnel in Amtrak, and that is what we 
have today, and CEO Joe Boardman, and, as I mentioned, some of 
the folks sitting behind me and the team that he has put 
together. It is absolutely critical for Amtrak to move forward 
and to be what this body and, frankly, the American public 
wants out of Amtrak is a rock-solid and also a visionary 
organization, and we have that now. And to be able to sustain 
that is one of the things that Amtrak truly needs.
    We look forward to being a partner, an active partner, in 
the economic development component of restimulating the 
American economy including in railcar manufacturing. We are 
doing our part in that by putting the fleet plan so 
manufacturers can plan to see what over the next 10, 12, 14 
years, or 30 or 40 years actually, is going to be needed just 
to replace the existing fleet and to take a modest assumption 
of 2 or 3 percent growth each year. To give you an example, 
over the next 14 years, we are going to need, and this is a 
conservative estimate, about $11 billion to start replacing the 
existing fleet.
    I might also add that we are also seeing and tracking the 
job numbers in investment that doesn't show up perhaps on 
anyone's tally sheet, and that is the investment that can come 
in around quality passenger rail, around train stations in 
downtown city centers. My Congressman, Congressman Hare, 
mentioned that. And I give you countless other examples of that 
around the country.
    Good investments in infrastructure, in transportation 
infrastructure, around our station will be good investments in 
downtown. Being a former mayor of a community, I understand the 
value of infill and not have to extend new sewer lines and new 
water lines, and build new highways or new roads, and take up 
good-quality farmland when you can do infill investment, 
commercial retail and residential, in downtown areas, and one 
of the ways to stimulate that is with passenger rail. We see a 
new day with Amtrak, and we thank again your support and for 
the many, many years you have been supporting us, and look 
forward to working with you in the future.
    Mr. Oberstar. Thank you for that response and for your 
enthusiasm. I enjoy hearing it. America is on the threshold of 
a passenger rail renaissance because of the bill we passed in 
2008; because of the funding that President Obama has committed 
in the high-speed rail initiative, the $8 billion; because of 
the funding the President has committed to sustain the regular 
annual Amtrak program to make the investments for the short 
term and the long term. And I want the word to go out to all 
Amtrak employees that there is a new era. Their faithfulness, 
dedication and years of work against incredible odds have paid 
off, and now Amtrak will have an opportunity to show what it 
can do to move people by passenger rail at speeds faster than 
the highway can take people in our society. They move greater 
numbers of people more efficiently.
    And the numbers that you have cited are very sobering, a 
huge, huge backlog of investment needs, but that is true in all 
of our infrastructure. That is true in every one of the 
categories represented at the witness table here today.
    We have underinvested in the underpinnings of our economy. 
And it was Adam Smith well over 200 years ago who said, if the 
public sector does its job well, then the private sector will 
be able to do what it does best. The public sector is providing 
the transportation needs, the water system support, the 
aviation requirements, the planning for economic development 
long term. The private sector, relying upon that and those 
foundations, will be able to invest for the long term.
    So for each of the agencies represented here, thank you for 
the work you have done. Thank you for keeping faith with the 
Recovery Act, with the stimulus funding that Congress and the 
President have provided. Keep it going. Take the lessons 
learned; apply them for the future not only for stimulus, but 
for our standard regular programs, and we will revisit this 
issue in another 4 or 5 weeks.
    I will just close with one face of recovery. Last August I 
went to visit a project, I-35, Interstate 35, southern tier of 
my district, between North Branch and Rush City. Granite--
sorry, Knife River Construction was doing 28 lane miles, 4 
lanes, 7 miles. I went to the gravel pit where they were 
classifying aggregates, gravel and sand. It had been shut down 
2 or 3 months earlier; now it is reopen, workers are on the job 
site.
    We went to the highway project itself, and the foreman 
called over one of the trucks. You have seen them, the big-
belly dumpers on construction sites. The driver pulled over, 
shut the engine off, jumped down sobbing, and threw her arms 
around me and said, I am Joyce Fisk. Thank you for my job. Two 
months ago my husband and I had finished dinner, we sent our 
boys off to bed, we just looked at each other across the table 
and said, where do we go from here? Our health insurance ended 
December 31, our unemployment comp ran out 3 months ago, we 
have 2 months' saving for our mortgage, and are we going to be 
able to send the boys to summer camp? And then we just cried 
and hugged each other.
    The next morning the phone rang, and Knife River called and 
said, we won the bid on I-35, report for work on Monday. And 
now if I can get my 1,200 hours in and my husband, who works 
for the same company, then our health insurance will be 
reinstated. We are paying the mortgage, we are paying taxes, 
and the boys went to summer camp.
    That is the human face of recovery. There are Joyce Fisks 
all over America and in every State who are looking to us and 
counting on us to make lives better; to move the projects 
through and move the funding along; to put people to work; to 
reestablish their self-worth and their identity in this society 
and in our economy. All of us have jobs. There are a couple 
million out there who don't who are counting on us to deliver. 
You started that process, done it well, lessons to be learned. 
We will go forward from here. Thank you for your contribution.
    The Committee is adjourned.
    [Whereupon, at 2:01 p.m., the Committee was adjourned.]

</pre></body></html>
